<html>
<title> - RECEIVING THE VIEWS AND PRIORITIES OF INTERIOR SECRETARY SALLY JEWELL WITH REGARD TO MATTERS OF INDIAN AFFAIRS</title>
<body><pre>[Senate Hearing 113-92]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 113-92
 
                 RECEIVING THE VIEWS AND PRIORITIES OF 

   INTERIOR SECRETARY SALLY JEWELL WITH REGARD TO MATTERS OF INDIAN 

                                AFFAIRS
=======================================================================


                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 15, 2013

                               __________

         Printed for the use of the Committee on Indian Affairs





                  U.S. GOVERNMENT PRINTING OFFICE

85-178                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON INDIAN AFFAIRS

                 MARIA CANTWELL, Washington, Chairwoman
                 JOHN BARRASSO, Wyoming, Vice Chairman
TIM JOHNSON, South Dakota            JOHN McCAIN, Arizona
JON TESTER, Montana                  LISA MURKOWSKI, Alaska
TOM UDALL, New Mexico                JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                MIKE CRAPO, Idaho
MARK BEGICH, Alaska                  DEB FISCHER, Nebraska
BRIAN SCHATZ, Hawaii
HEIDI HEITKAMP, North Dakota
        Mary J. Pavel, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 15, 2013.....................................     1
Statement of Senator Barrasso....................................     2
Statement of Senator Begich......................................    29
Statement of Senator Cantwell....................................     1
Statement of Senator Fischer.....................................     4
Statement of Senator Franken.....................................     5
Statement of Senator Heitkamp....................................     7
Statement of Senator Hoeven......................................    22
Statement of Senator Johnson.....................................     4
Statement of Senator Schatz......................................     6
Statement of Senator Tester......................................     4
Statement of Senator Udall.......................................    31

                               Witnesses

Jewell, Hon. Sally, Secretary, U.S. Department of the Interior; 
  accompanied by Lawrence Roberts, Deputy Assistant Secretary, 
  Indian Affairs.................................................     8
    Prepared statement...........................................    10

                                Appendix

Response to written questions submitted to Hon. Sally Jewell by:
    Hon. John Barrasso...........................................    38
    Hon. Maria Cantwell..........................................    35
    Hon. Heidi Heitkamp..........................................    48


 RECEIVING THE VIEWS AND PRIORITIES OF INTERIOR SECRETARY SALLY JEWELL 
                WITH REGARD TO MATTERS OF INDIAN AFFAIRS

                              ----------                              


                        WEDNESDAY, MAY 15, 2013


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
628, Dirksen Senate Office Building, Hon. Maria Cantwell, 
Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    The Chairwoman. The Senate Committee on Indian Affairs 
oversight hearing will come to order.
    We are here this afternoon to hold an oversight hearing on 
Receiving the Views and Priorities of Interior Secretary Sally 
Jewell on the Matters of Indian Affairs.
    I am very happy to welcome Secretary Jewell, a good friend 
and fellow Washingtonian, to her first appearance before the 
Indian Affairs Committee. She was sworn in as Secretary of the 
Interior on April 12, 2013. Although she has only been 
Secretary for a little over a month, the Committee appreciates 
this opportunity to hear your priorities for the Indian affairs 
at the department.
    It is important to hear from Secretary Jewell in her early 
tenure as Secretary of Interior because the relationship 
between tribal governments and the Federal Government is a 
unique one. The government-to-government relationship is 
grounded in the United States Constitution, treaties, Federal 
statutes and Supreme Court decisions.
    This relationship is a mature relationship expressed in the 
terms of legal duties, moral obligations and expectancies that 
have arisen based on the continuous history of tribal 
interactions with the Federal Government since the formation of 
the United States.
    This relationship, a trust relationship between the Federal 
Government and tribal governments exists at every Federal 
agency. However, because Congress has placed primary 
responsibility for Indian matters in the Department of 
Interior, the Department is seen as the agency leader on Indian 
matters. It is important to have this opportunity to hear from 
the Secretary and for the Committee to make sure that the trust 
responsibility is upheld at the Department.
    There are many areas in which the Department and the tribes 
are working together. The Department and tribes have put 
significant resources and plans in place to improve public 
safety on Indian lands. The Department has been committed to 
settling longstanding trust resource cases and has created a 
Secretarial Commission on Trust Administration and Reform to 
look at ways that trust policies can be improved.
    There are many other issues. I know the Vice Chairman and I 
are both personally very interested in energy issues in Indian 
Country and we know there are other areas that need to be 
improved. For example, only 52 percent of American students who 
attend Bureau of Indian Education schools graduate in 
comparison to 76 percent in public schools.
    Recent General Accounting Office testimony before Congress 
found that high turnover at the Director position and a 
fragmented administrative structure within the Bureau has 
negatively impacted the education of Indian students.
    The Committee has heard countless times about the poor 
conditions of Bureau of Indian Education facilities, so the 
Committee will be looking to you, Secretary Jewell, to provide 
the leadership in making improvements in this area.
    We also want to encourage you to bring your strong business 
background into the position of Secretary to look for other 
ideas for enhancing the economic and job opportunities for 
tribal governments and tribal members and certainly in getting 
legislation passed on a Carcieri fix and taking land into trust 
is an important aspect of economic development.
    The Committee looks forward to hearing your views on these 
issues and we look forward to working with you in putting 
forward a very positive impact for Indian people throughout the 
United States of America.
    The Chairwoman. I would like to now turn to Vice Chairman 
Barrasso for his opening statement.

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you, Madam Chairwoman, for holding 
this hearing to receive testimony from Interior Secretary 
Jewell on her views and priorities for Indian country.
    I would like to begin by welcoming Secretary Jewell to the 
Committee and again, congratulating her on her confirmation as 
the 51st Secretary of the Interior.
    I know it has been a busy month and it is getting busier 
every day. We appreciate your taking the time to join us today.
    I have questions for Secretary Jewell on a number of 
different topics. For now, I would just like to make a couple 
of points so that we can then proceed to the testimony.
    First, I think it is worthwhile to pause and remind 
ourselves of some important historical facts about our 
country's Indian reservations. One of those is that Indian 
reservations were conceived of and created by the United States 
Government. Like many ideas emanating from Washington, D.C., 
the 19th Century policy of confining whole populations of 
Native peoples to reservations deserves, in retrospect, about 
as much criticism as we can possibly heap upon it now, today, 
in the 21st Century.
    But that is what the government did back then and there is 
no erasing it from the history books. Yet, as unfortunate as 
this policy was, these reservations we created were not 
supposed to be just a place to put people. They were supposed 
to be a homeland. They were supposed to be a place where Indian 
people would live, raise children and celebrate their lives and 
their cultures. Homeland means these things and much more.
    My point is that this is not just land and not just a 
place. Each reservation represents a specific homeland that was 
set aside for the benefit of the specific Native people on that 
reservation. We often seem to forget this basic historical fact 
when we formulate Indian policy here in Washington.
    Whenever we have witnesses from the BIA or the Department, 
I always ask about the status of things like the Indian 
irrigation projects and the deferred maintenance. The reason 
for that is that these projects were supposed to form the basis 
of local economies for specific Indian homelands.
    The problem is that 100-plus years later, now they are 
falling apart and the Department and Congress do not seem to 
know what to do about it. When Washington, D.C. creates 
statutes, regulations and policies for Indian country, we 
simply must ask ourselves what are we doing to people's lives.
    For example, take oil and gas development--the Chair 
mentioned our mutual interest in energy. I realize the 
Administration wants to promote alternative energy sources to 
shift away from fossil fuels. To one extent or another, some 
members of this Committee may feel the same way, and that is 
fine.
    In fact, on some reservations, renewables like wind and 
solar may hold real promise. On other reservations, oil and gas 
or coal reserves held in trust by the United States for the 
tribes or for their members represent by far the number one 
best opportunity for prosperity of that tribe in that location.
    Some tribes rightfully believe that now is the time to make 
something of these trust assets. Now is their chance to bring 
real benefits to the current and future generations. Are we 
going to tell them, no, we are sorry, but we don't like these 
things anymore? I am certainly not going to tell them that.
    Instead, we should be asking, what can Congress do to help 
tribes and their members make use of the trust minerals that we 
set aside for their sole benefit if, in fact, that is what they 
want to do today? We should be asking the tribes, not the 
Sierra Club or the policy wonks in some think tank or some 
university what they want to do with their homelands.
    After all, these are the tribes' homelands, not ours, and 
those trust assets were set aside for the benefit of the 
tribes.
    Thank you, Madam Chair.
    The Chairwoman. Thank you.
    I am going to go back and forth on opening statements. 
Senator Johnson.

                STATEMENT OF HON. TIM JOHNSON, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Thank you, Chairwoman Cantwell, for 
holding this hearing with Interior Secretary Jewell to discuss 
the views at the Department regarding Indian affairs.
    This is an important time to discuss issues regarding 
Indian country. The effect of sequester cuts is starting to 
impact tribal programming. In February, I shared my views with 
former Secretary Ken Salazar and Secretary Sebelius regarding 
the devastating impacts these cuts would have on already under-
funded programs.
    Based on treaties, the Federal Government has a special 
relationship with American Indian tribes. It is important that 
the United States Government recognizes this obligation to 
uphold and honor these treaties and trust responsibilities. We 
all play an important role at the Federal level to promote 
economic development, public safety and self sufficiency for 
Indian communities.
    Today, I look forward to the testimony of Secretary Jewell.
    Thank you again, Madam Chair, for holding this hearing.
    The Chairwoman. Senator Fischer, do you have an opening 
statement?

                STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. Thank you, Madam Chair and Vice Chairman 
Barrasso.
    Welcome and it is nice to see you here, Madam Secretary. I 
appreciate you taking the time to come before the Committee to 
have a conversation with us about this very important issue.
    As you know, the BLS statistics indicate that the 
unemployment rate for American Indians and Alaska Natives is 
nearly double the national average. This is not acceptable.
    In your testimony, you said that no area holds more promise 
for growing our economy and creating jobs than American energy. 
I am following up on what Senator Barrasso talked about because 
I believe that the Department needs to be committed, as you say 
in your testimony, to assisting tribes in expanding safe and 
responsible oil and gas development in accordance with tribal 
objectives.
    I do agree with Senator Barrasso that our government needs 
to work with Native people in developing their resources and 
managing their resources in a responsible manner so that they 
can grow their economies and help their citizens, as well as 
grow their communities. I think that is vitally important.
    I look forward to having that conversation with you. Thank 
you again for being here.
    The Chairwoman. Senator Tester.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Madam Chair. Once again, I want 
to thank you and the Ranking Member for having this hearing.
    I welcome Secretary Jewell. This is the second time you 
have been before one of my committees. I appreciate the 
opportunity.
    I would like to say from the outset, you are setting a 
great example of leadership in the Department. Not only are you 
visionary in what you want to do but you also hired away one of 
my best staff members in Stephanie Harding.
    In all truthfulness, I think you are off to a very good 
start. Indian country is a little different than the rest of 
the issues you will be dealing with. There are trust 
responsibilities, how we deal with Indian lands compared to 
lands like BLM and the relationship we have between Native 
Americans and the Federal Government.
    I refer back to a friend of mine, now deceased, who was 
head of the Crow Tribe when I was first elected to this 
position, Carl Van. Carl used to say, give us the tools to 
succeed and then get out of the road. I think those are words 
to live by in Indian country.
    I want to say there are a ton of issues out there. We will 
get into some of them today. I certainly appreciate your 
openness to improve Indian country and make it all it can be.
    Thank you.
    The Chairwoman. Senator Franken.

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Thank you, Madam Chair. Thank you for this 
hearing and thank you, Secretary Jewell for coming before the 
Committee.
    I had the pleasure of following your nomination from my 
seat on the Energy Committee. I have already discussed the 
important role that the Department of Interior plays in the 
relationship between the Federal Government and Indian Country. 
Congratulations on your confirmation and I look forward to 
working with you as Secretary of the Interior.
    As you know from our earliest conversations during your 
confirmation process, I am extremely concerned about the 
condition of schools under the Bureau of Indian Affairs. The 
Bureau lists 46 schools in poor condition that need to be 
rebuilt. With the lack of funding over the years there is now a 
backlog of $1.3 billion in Indian school construction projects.
    One such school, you have heard me discuss, is the Bug O 
Nay Ge Shig School on the Leech Lake Reservation in my home 
State of Minnesota. The Bug school is desperately in need of 
replacement. Students and teachers have to deal with leaking 
roofs, mold, rodent infestations and sewer problems. If the 
wind starts blowing at a certain rate, they have to leave the 
school because it doesn't meet the safety standards. This can 
be when it is 20 degrees below zero in northern Minnesota. It 
puts the Bureau of Indian Education to shame.
    Despite the fact that many schools need to be rebuilt, this 
year, like last year, the President requested that no funding 
go to rebuilding these schools, leaving thousands of Indian 
children to study in crumbling and even dangerous buildings. 
This is unacceptable and I hope you will work to change that 
request in the future. We have to work to do something about it 
this year as well.
    I was happy to see you discuss in your testimony the 
potential for renewable energy development on Indian lands. 
There are immense, untapped renewable energy resources on 
tribal lands. Your department plays a key role in unlocking 
that potential. Support to help tribes invest in renewable 
energy and energy efficiency can help tribes become energy 
independent, create jobs and enhance economic development.
    The last thing I would like to touch on is sequestration. 
These extreme cuts are having an outsized impact on the 
services the Federal Government provides to the tribal nations. 
As with many issues in this Committee, those impacts do not 
receive the national attention that many other sequestration 
cuts are receiving.
    These include cuts to health benefits under Indian Health 
Service where Medicaid, Medicare and veterans health benefits 
are exempt from sequestration cuts and rightly so, but singling 
out Native American programs for sequestration cuts is unfair 
and at odds with the Federal Government's trust responsibility.
    I hope you will use your position as Secretary of Interior 
to help raise the profile of the impact of sequestration on 
tribal communities. We need to replace these devastating cuts 
with a more responsible and balanced approach.
    Thank you for coming today. I look forward to your 
testimony and the questions.
    The Chairwoman. Senator Schatz.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Madam Chairwoman and Vice 
Chairman Barrasso.
    Thank you, Secretary Jewell. I appreciate your willingness 
to come before the Committee. I note this is your first post-
confirmation appearance before an authorizing committee of the 
Congress.
    For almost two centuries, policies of removal, relocation, 
assimilation and termination dominated and often worsened the 
conditions for all Native peoples--Native Alaskans, Native 
Americans and Native Hawaiians--and their communities. In 1968 
and 1970, the Administrations of President Johnson and Nixon 
introduced Federal policy statements supporting tribal self 
determination and called for a shift in responsibility of 
public programs to tribal governments. This marked a new policy 
of self-determination and self-governance.
    Federal reaffirmation of tribal sovereignty through self-
governance programs has enabled tribes to generate revenues 
through their own business enterprises, manage and prioritize 
program funding and design school curricula to better meet the 
needs of Native students.
    While there is much work to be done to enhance the ability 
of tribal nations to strengthen and sustain their communities, 
the Federal focus on self-determination and self-governance has 
proven to be the only Federal policy that works in Native 
communities.
    Unfortunately, Madam Secretary, Native Hawaiians are the 
only federally-recognized Native people without a government-
to-government relationship with the United States. I believe 
strongly that Native Hawaiians deserve the same access to the 
prevailing Federal policy on self-determination as American 
Indians and Alaska Natives.
    Separate is not equal and that is why I urge your support 
for parity in Federal policy for Native Hawaiians. This year 
marks 120 years since the Kingdom of Hawaii was overthrown by 
force by agents of the United States. It is long past time for 
the Native Hawaiian people to regain their right to self 
governance.
    I look forward to working with the members of the 
Committee, the Department and the White House to right this 
wrong.
    Thank you, Madam Chairwoman.
    The Chairwoman. Thank you, Senator Schatz.
    Senator Heitkamp.

               STATEMENT OF HON. HEIDI HEITKAMP, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. Thank you, Chairwoman Cantwell and Vice 
Chair Barrasso for this very important first meeting and what 
we hope will be a long relationship with the Secretary and the 
Department of Interior on critical issues.
    For eight years, I served as North Dakota's Attorney 
General and Madam Secretary, you will have the honor of meeting 
with the Western AG's probably once a year. I always sat as the 
last speaker. As we talked about problems with endangered 
species, problems with water and land management, everyone 
would address their concerns, I said the same thing for eight 
years. I said, what are you going to do to improve the 
conditions for Native American children in Indian country. For 
eight years, I got the same response which was, we share your 
concern.
    The last year that I was AG and raised it, I said, could 
you humor me and actually do something about it. Could you 
actually make a commitment to when you leave office that the 
condition for Native American children will be improved in 
Indian country because that is the future, not only for our 
Native people, but it is also the future of our States who 
enjoy a large percentage of our population who are Native 
people who live in Indian country and who are looking for an 
opportunity and housing.
    They are looking for quality education, whether it is Head 
Start or higher education. They are looking for public safety. 
They want the same things we want which his to be safe in our 
homes. They are looking for an economic opportunity. They are 
looking for an infrastructure that addresses their needs.
    Their veterans serve in record numbers, record percentages, 
highest percentage of anyone in the Armed Services of any group 
and they deserve that recognition and attention.
    I would close with the great words of Sitting Bull who 
said, ``Let's put our heads together and see what we can 
accomplish for our children.'` I hope you will make a personal 
commitment, along with this Committee, that when you walk out 
of the Department of Interior that the conditions in Indian 
country for Native children and their families have been 
improved.
    Thank you so much. I look forward to your testimony.
    The Chairwoman. Thank you.
    Secretary Jewell, thank you for being before the Committee. 
Welcome to both you and Deputy Assistant Secretary Roberts. 
Thank you both for being here. We look forward to your 
testimony.

        STATEMENT OF HON. SALLY JEWELL, SECRETARY, U.S. 
          DEPARTMENT OF THE INTERIOR; ACCOMPANIED BY: 
         LAWRENCE ROBERTS, DEPUTY ASSISTANT SECRETARY, 
                         INDIAN AFFAIRS

    Secretary Jewell. Thank you very much, Chairwoman Cantwell, 
Vice Chairman Barrasso and members of the Committee.
    Thanks also for your collective opening statements. It is 
very helpful.
    I want to say that Kevin Washburn, the Assistant Secretary, 
is sad that he cannot be here. He is in South Dakota working on 
child welfare issues with a gathering of nine tribes dealing 
with the issues of foster parenting of children on tribal 
lands.
    I know that Larry Roberts is going to do a great job 
standing in for him as Deputy Assistant Secretary. I think it 
would be fair to say that Larry and I and Kevin would gladly 
hold hands and say at the end of our tenure, life will be 
better for Indian children than it is at this point. It is 
certainly a commitment that I have and also the two gentlemen I 
referenced have, and I sense throughout the Department of the 
Interior.
    I was very happy to meet with tribal leaders my first week 
on the job. It was really an opportunity for me to learn from 
them, to listen to them and hear what they had to say. They 
were a great representative sample of the 566 federally-
recognized tribes that we have, but by no means, the end of my 
communication, just the very start. It was a great opportunity 
to hear what they had to say.
    I am completely committed to upholding the Federal 
Government's trust and treaty responsibilities and the nation-
to-nation relationship that we have with Indian tribes and 
Alaska Natives. It is difficult to do, as you know. It is very 
important to do and I cannot do it without your help and 
without Congress' help. I hope we can be partners together in 
strengthening tribal nations, in promoting self-governance and 
self-determination, which are a part of what many of you just 
referenced.
    Quickly, on the personal side, I have had a number of 
connections with tribes over the years, mostly as a commercial 
banker. I was the lead banker for NANA, an Alaska Regional 
Corporation based in Kotzebue. I did work with Doyon, Sealaska, 
Cook Inlet and others in the State of Washington. In my work in 
banking there, I did work with the Squaxin Tribe, the Colville 
Tribe and had engagement with other tribes sometimes behind the 
scenes, sometimes on the front lines.
    That gave me an appreciation of both the government-to-
government relationship that we have, the regulations, the 
opportunities they have and frankly, a lot of the challenges 
that they have as well.
    In talking about my priorities for this job, my role and 
how it knits together with all of you, first is honoring our 
trust relationship with tribes, fulfilling our moral and our 
legal obligations to tribes, protecting and restoring tribal 
homelands, following through on the Cobell settlement, the 
historic recent settlement and making sure that is 
operationalized.
    Also, it is addressing the challenges Chairwoman Cantwell 
mentioned on Carcieri and also the Patchak litigation. These 
are things that we need legislative support to address.
    It is developing tribal energy resources. To Vice Chairman 
Barrasso and Senator Fischer, it is conventional energy, it is 
also renewable energy as Senator Franken referenced. On the 
renewable side, we have 50 projects already going on 35 
reservations. With up to 267 reservations we think have 
potential there.
    On the conventional side, we have opportunities to improve 
the leasing process, in particular to accelerate development. 
With the price of oil in particular, this can bring tremendous 
economic value to tribes. We are committed to developing energy 
resources, both conventional and renewable.
    Indian education is an embarrassment to you and to us. It 
is not for lack of desire. This is the one part of the 
Department of the Interior that deals with Indian affairs, but 
particularly Indian education that deals directly with services 
to children. We know that self-determination and self-
governance is going to play an important role in bringing the 
kind of academically rigorous and culturally appropriate 
education that children need. It is not easy to do.
    To Senator Franken's comment concerning facilities, we have 
put $2 billion into facilities over the last ten years and 
still have something like 68 that are in poor condition. We 
need support from a resource standpoint to do that. Perhaps 
there are some opportunities to do something creative outside 
of what we thought of before to help address the circumstances 
that you speak so passionately about, Senator Franken.
    Climate change adaptation, not surprisingly perhaps, when 
things get tough, it feels like the tribes take it on the chin 
more than others. In Alaska, climate change is far more evident 
in subsistence, in melting snow packs earlier and the changes 
to wildlife and the ability to get out on pack ice to do hunts 
and so on. It is very up close and personal.
    Also, throughout parts of the west, we have wild land fires 
where we have significant tribal lands, and need to make sure 
we have water resources, and even flooding as we saw in the 
upper Midwest earlier this season. Climate change adaptation 
will hit tribes harder than other communities. We have to be 
prepared for that.
    Lastly, in terms of priorities, regulatory reform, 
particularly in the acknowledgement process for tribes, it is 
going to be a very high priority to figure out what we can do 
within the Department, how we can work with you, how we can 
work with tribes to consult on what is wrong with the process 
and how we can enhance the process to bring clarity on those 
rules and the roles we each have.
    Regarding challenges, several of you mentioned the 
sequester. This is the part of Interior that deals with the 
people. When the cuts are indiscriminant and across every 
category, we can say we are concerned about Indian education 
but we have whacked directly $40 million out of the Indian 
education budget. That hurts and it is a budget that cannot 
take it.
    Overall, for Indian affairs, $119 million has been cut, $52 
million in contracts to tribes where they are providing 
services directly themselves and $67 million in total for 
federal direct services.
    We have tough choices going forward in the budget. Some of 
you referenced some of those. Contract support costs are one. 
They are not fully funded in the budget in spite of the Supreme 
Court decision in Salazar v. Ramah but we are trading off 
direct programming costs relative to contract support costs.
    We know we need to consult with tribes to work with them on 
the long term solutions that benefit them. How can we support, 
in more effective ways, self-governance and self-determination. 
I am committed to working with you in all of those areas.
    In conclusion, I recognize you have a lot more experience 
on this than I do. I am now beginning my fifth week on the job. 
I do have great colleagues at the Department of the Interior 
and at Indian Affairs, in particular, who are very, very 
helpful to me and certainly will be helpful to me in this 
hearing as you drill into detail.
    I also will say that the meetings I have had with tribal 
leaders have been enormously powerful and helpful in 
understanding the issues they face. Tribal consultation will be 
an important part of the role I play in carrying out the 
responsibilities entrusted to me.
    I look forward to continuing the commitment of this 
Administration to the Federal Government's role as a respectful 
and productive partner with American Indians and Alaska Natives 
through our work at the Department of the Interior, working 
with other departments of the Federal Government and working 
together with you.
    Thank you very much and I look forward to your questions.
    [The prepared statement of Secretary Jewell follows:]

Prepared Statement of Hon. Sally Jewell, Secretary, U.S. Department of 
                              the Interior
    Good afternoon, Chairwoman Cantwell, Vice-Chairman Barrasso, and 
Members of the Committee. I would like to thank my friend and fellow 
Washingtonian Senator Cantwell for inviting me to be here today. It is 
a pleasure to appear before your Committee to discuss my views and 
priorities relating to Indian Affairs at the Department of the 
Interior.
Introduction
    As I have become more familiar with the details of the Department's 
many missions and programs over these past few weeks, I have come to 
see the truly astonishing breadth of the issues and responsibilities 
located within this one agency. As I said at my confirmation hearing, 
it is with deep humility that I acknowledge the scale of the duties 
entrusted to the office, from upholding our solemn trust 
responsibilities to American Indians and Alaska Natives to making wise 
decisions about the use and conservation of the resources with which we 
have been blessed. Almost all of these duties and responsibilities are 
applicable to the Indian Affairs programs.
    As Secretary of the Interior I have the responsibility to oversee 
the work of all components of the Department that intersect with Indian 
Country, including the important work performed by the Office of the 
Assistant Secretary--Indian Affairs, the Bureau of Indian Affairs, the 
Bureau of Indian Education, and the Office of the Special Trustee.
    My familiarity with Native American issues developed through my 19 
years in commercial banking from 1981 to 2000. During that time, I 
worked with a number of Indian tribes in the Northwest, and served for 
several years as the lead banker for NANA, an Alaska Regional 
Corporation. I learned that, through treaties, the Constitution, 
Federal law, and court decisions, the United States has a government-
to-government relationship with, and obligations to, American Indian 
tribes and Alaska Natives. I also learned that American Indian tribes 
and Alaska Native groups are governments with inherent sovereignty.
    As Secretary of the Interior, I am committed to upholding the 
Federal government's obligations to Native Americans and to 
strengthening the United States' government-to-government relationship 
with Indian tribes and Alaska Natives. I realize that the Federal 
Government has not always honored its trust responsibilities or fully 
recognized the sovereign status of tribes. I acknowledge this before 
discussing my broad goals and the challenges that we face.
    American Indians and Alaska Natives are survivors of efforts to 
assimilate indigenous people, terminate tribal governments, and wipe 
out native languages and cultures. The emotional, spiritual, 
psychological, and physical violence perpetrated on continues to haunt 
Native American communities today. American Indians and Alaska Natives 
consistently rank near the bottom of every economic, social and health 
indicator. While nothing can undo this tragic history, I am learning 
that this Administration, including my predecessor Secretary Ken 
Salazar, has taken action to address these disparities in Native 
American communities.
    That effort began with a promise by then presidential candidate 
Barack Obama to hold a yearly summit with tribal leaders from all 
Federally-recognized tribes. Beginning with his first address to the 
first gathering of tribal leaders in 2009, President Obama told these 
tribal leaders that this time would be different and that he would 
begin a lasting conversation--one that would be crucial to our shared 
future. He also committed to forging a new and better future together 
where those in Indian Country could be full partners in pursuing the 
American Dream. As you can imagine, Indian Country was skeptical. But 
with the passage of the Tribal Law and Order Act, the settlement of the 
Cobell case and tribal trust litigation and, more recently, the passage 
of the tribal criminal jurisdiction provisions in the Violence Against 
Women Act, all with the full support of the Obama Administration, we 
have made great progress in showing that it is indeed a new day.
    As Secretary, I intend to carry on the Obama Administration's 
policy with respect to Indian Affairs. The cornerstone of that policy 
continues to be promoting tribal self-governance and self-determination 
and recognizing the inherent right of tribal governments to make their 
own decisions to strengthen their communities. Over the past few weeks, 
I have reviewed the various programs and issues at the Department and 
have identified a number of important priorities with regard to Indian 
Affairs programs. Those priorities generally fall within several broad 
issue areas: honoring the trust relationship by restoring tribal 
homelands; upholding treaty obligations and protecting trust and 
natural resources; strengthening tribal nations; and promoting self-
governance.
    Successful management of all of these priorities is important to 
Indian Country. At the end of our tenure here, I hope that Indian 
Country will have no doubt that the Federal Government can be a 
respectful and productive partner.
Working Toward the Promise: Departmental Goals and Priorities
Honoring the Trust Relationship
Restoring Tribal Homelands
    One way that the Obama Administration has sought to advance a 
nation-to-nation relationship with tribal governments and the long-
standing policy goals established in the Indian Reorganization Act 
(IRA) is by protecting and restoring tribal homelands. We must never 
forget that through the destructive federal policies of allotment and 
assimilation, Tribes lost tens of millions of acres of tribal lands. At 
the present time, tribes use lands acquired in trust for housing, 
schools, hospitals, tribal government administrative offices and 
economic development projects. More generally, tribes use trust lands 
to promote the health, safety, social, and economic welfare of tribal 
members and tribal governments. Over the last four years, Indian 
Affairs has processed more than 1,100 separate applications and 
acquired over 205,000 acres of land in trust on behalf of Indian tribes 
and individuals. Nonetheless, efforts to restore tribal homelands have 
been hindered by the United States Supreme Court decisions in Carcieri 
v. Salazar and Salazar v. Patchak.
    In Carcieri v. Salazar, 555 U.S. 379 (2009), the Supreme Court held 
that land could not be taken into trust for the Narragansett Tribe of 
Rhode Island under Section 5 of the Indian Reorganization Act of 1934 
because the Tribe was not under Federal jurisdiction in 1934. The 
Carcieri decision represents a step back toward misguided policies of a 
century ago and is wholly inconsistent with the United States long-
standing policy of self-governance and self-determination for all 
Federally-recognized tribes.
    The decision has placed unnecessary and substantial administrative 
burdens on the Department and tribes, and has significantly increased 
litigation risks. The historical inquiry into whether an Indian tribe 
was ``under federal jurisdiction'' in 1934 is often fact-intensive and 
can make the Department's review process for acquiring land in trust 
pursuant to Section 5 of the IRA both time consuming and costly for 
tribes and the Department.
    Then, after the Department's decision is complete, it is not 
atypical for suits to be filed challenging the acquisition. The 
Department is currently engaged in both Federal court and 
administrative litigation regarding the Secretary's authority to 
acquire land in trust pursuant to the IRA following the Carcieri 
decision. The increase in litigation results in years of delay and 
significant additional cost to the Department, tribes, and also the 
Department of Justice. These litigation costs have real life 
consequences--including the unwarranted diversion of time and resources 
that could be expended on services and programs in tribal communities. 
Overall, the Carcieri decision creates uncertainty and adversely 
affects the tribes' ability to progress as a government.
    The Administration continues to support a legislative solution to 
address the negative impacts and increased burdens on the Department 
and on Indian Country resulting from this decision. The President's 
Fiscal Year 2014 Budget includes language that, if enacted, would 
resolve this issue.
    The Supreme Court's decision in Salazar v. Patchak, or Match-E-Be-
Nash-She-Wish Band of Pottawatomi Indians v. Patchak, 132 S. Ct. 2199 
(2012), has exacerbated the problems created by the Carcieri decision. 
In Patchak, the Court held that, despite the Quiet Title Act, the 
decisions of the Secretary to acquire land in trust for tribes could be 
challenged even if the land at issue was already held in trust by the 
United States. The Supreme Court rejected the Government's argument 
that there was a widely-held understanding that once land was held in 
trust by the United States for the benefit of a tribe, the Quiet Title 
Act prevented a litigant from seeking to divest the United States of 
such trust title.
    The Administration could support a legislative solution to the 
Patchak decision that allows for judicial review of the Secretary's 
decisions to acquire land in trust while also protecting the tribal 
land base after title to the land transfers to the United States in 
trust for a tribe.
Cobell Settlement Implementation
    Congress approved the Cobell Settlement Agreement in the Claims 
Resolution Act of 2010, Pub. L. No. 111-291 (Dec. 8, 2010). The 
Settlement was finalized on November 24, 2012, following the end of the 
appeal process. The $3.4 billion Settlement addresses the Federal 
Government's responsibility for trust accounts and trust assets 
maintained by the United States on behalf of more than 300,000 
individual Indians.
    I know that Secretary Salazar, Deputy Secretary Hayes, and 
Solicitor Tompkins were major proponents of that settlement. Its 
implementation will ultimately serve to strengthen the relationship 
between Native Americans and the Federal Government. I am pleased to 
continue to make implementation of this historic settlement a priority 
at the Department.
Individual Compensation
    Of the Settlement funds, $1.5 billion compensates class members for 
their historical accounting, trust fund, and asset mismanagement claims 
regarding the Individual Indian Money accounts held in trust by the 
Federal Government. The Department's involvement in this phase of the 
settlement is limited to supplying the ``best and most current'' 
contact information for each beneficiary class member and indicating if 
the class member is a minor; non-compos mentis; an individual under 
legal disability; in need of assistance; or whose whereabouts is 
unknown. Settlement payments to the Historical Accounting Class members 
began on December 17, 2012 for Stage 1. Payments to Trust 
Administration Class (Stage 2) members may occur before the end of 
2013.
    OST's Trust Beneficiary Call Center has increased its capacity to 
address the increased number of calls that occurred following Stage 1 
payments, and we expect even more capacity will be needed to meet the 
volume increase expected with the Stage 2 payments.
Land Buy-Back Program
    The remaining part of the Settlement establishes a $1.9 billion 
fund to consolidate fractionated ownership of land interests in Indian 
Country. The Land Buy-Back Program provides for voluntary purchases of 
fractionated interests in trust or restricted parcels from willing 
Individual Indian Money Account holders. The Settlement gives the 
Department ten years to consolidate such fractional interests under the 
program for beneficial use by tribal communities.
    Given the Land Buy-Back Program's size, limited duration, and 
importance, the Department established an office within the Office of 
the Secretary, subject to the oversight of the Deputy Secretary, to 
facilitate coordinated engagement and accountability within the 
Department and to streamline projects and the prioritization of 
resources. The Department hopes to make offers to purchase fractional 
interests at initial locations by December 2013.
Indian Education Scholarship Fund
    As an additional incentive to participate in the Land Buy-Back 
Program, the Settlement authorizes up to $60.0 million to be set aside 
for an Indian Education Scholarship Fund for American Indian and Alaska 
Native students when individuals sell fractional interests under the 
Land Buy-Back Program. On March 12, 2013, Secretary Salazar announced 
the selection of the American Indian College Fund to administer the 
student scholarship fund, with a fifth of the annual scholarships to be 
awarded by the American Indian Graduate Center.
Indian Trust Commission
    One of the many outcomes of the Cobell Settlement was the creation 
of the Secretarial Commission on Indian Trust Administration and 
Reform. This five-member Commission is charged with conducting a 
comprehensive evaluation of the Department's management of nearly $4 
billion in American Indian trust assets and offering recommendations 
for improvement. The Commission is expected to deliver a report at the 
end of November 2013.
Honoring Treaty Commitments
    The Obama Administration has made it a high priority to honor our 
treaty obligations and trust responsibility to Native Americans and 
Alaska Natives, and I intend to carry out that commitment.
    One important way the Department honors its commitments is through 
the Rights Protection Implementation program, which supports the 
implementation of Federal court orders that resulted from decisions in 
complex, off-reservation treaty rights litigation. Generally speaking, 
these cases involved treaties in which the signatory tribes conveyed 
significant amounts of land to the United States and reserved the right 
to hunt, fish, and gather within the ceded territory. The rights 
involved are shared among multiple tribes and involve co-management 
with other jurisdictions.
    There are 49 tribes whose off-reservation hunting, fishing and 
gathering rights in the Pacific Northwest and Great Lakes regions are 
supported by this program. Five umbrella intertribal organizations 
assist the tribes in implementing relevant court orders and carrying 
out co-management responsibilities. The court decisions and orders 
implemented through this program include U.S. v. Washington, U.S. v. 
Michigan, Lac Courte Oreilles v. Voigt, U.S. v. Oregon, Minnesota v. 
Mille Lacs and Grand Portage v. Minnesota. In addition, this program 
supports implementation of the US/Canada Pacific Salmon Treaty.
Settling Indian Water Rights Disputes
    With respect to Indian water rights, I am committed to continuing 
and enhancing the Department's longstanding initiative of settling 
Indian water rights disputes whenever possible. Indian water 
settlements help fulfill the United States' general trust 
responsibility trust responsibility to tribes and ensure that Indian 
people have safe, reliable, and accessible water supplies. Indian water 
settlements also end decades of controversy and contention among tribes 
and neighboring communities and promote cooperation in the management 
of water resources.
    The Administration is committed to resolving Indian water rights 
claims and ensuring that Native American communities can use and manage 
water to meet domestic, economic, cultural, and ecological needs, as 
demonstrated by the six Indian water rights settlements that have been 
enacted into law during this Administration. These settlements include 
the four enacted under the Claims Resolution Act of 2010, Pub. L. No. 
111-291 (Dec. 8, 2010), benefitting seven tribes in three different 
states at a total Federal cost of more than $1 billion: White Mountain 
Apache Tribe in Arizona, the Crow Tribe in Montana, and the Pueblo of 
Taos, Pueblo of Nambe, Pueblo of Pojoaque, Pueblo of San Ildefonso, and 
Pueblo of Tesuque in New Mexico; and the two settlements enacted under 
the Omnibus Public Lands Act, Pub. L. No. 111-11, 123 Stat. 991 (2009), 
including the Shoshone-Paiute Tribes of the Duck Valley Reservation 
Water Rights Settlement (Nevada), and the Navajo-San Juan River Indian 
Water Rights Settlement Agreement (New Mexico).
    To help the Department more effectively partner with tribes on 
water issues, the Department assists tribes during the assessment, 
litigation, negotiation and implementation phases of establishing and 
enforcing tribal water rights. Currently, there are 17 appointed 
Federal Indian Water Rights Negotiation Teams active in negotiating 
water rights claims in the western United States. An additional 21 
Federal Indian Water Rights Implementation Teams work on implementing 
congressionally enacted settlements, including the four enacted in 
2010. With increasing drought conditions in the United States and 
pressure from an expanding population, the number of requests for the 
appointment of new negotiation teams continues to grow.
Strengthening Tribal Communities
Increasing Renewable and Conventional Energy Development on Indian 
        Lands
    A stronger America depends on a growing economy that creates jobs. 
No area holds more promise than investments in American energy. As the 
President has stated many times, our success depends in significant 
part on pursuing an all-of-the-above energy strategy. As a part of this 
strategy, the Department is committed to assisting tribes in expanding 
on Indian lands renewable, low cost, reliable, and secure energy 
supplies as well as and safe and responsible oil and gas development in 
accordance with tribal objectives. Implementing the President's all-of-
the-above energy strategy in Indian Country will contribute to the 
goals of increasing our nation's domestic energy supplies and of 
improving the economies of many Indian tribes and Alaska Native 
villages.
    Under the Assistant Secretary, the BIA is responsible for 
developing, implementing and reviewing bureau-wide policies, plans, 
processes, environmental impact studies, industry leasing and 
development activities, and other functions related to development and 
production of energy and mineral resources on Indian lands. In 
addition, the Office of Indian Energy and Economic Development (IEED), 
within the Office of the Assistant Secretary for Indian Affairs, 
provides financial and technical assistance to tribes, supporting 
development and management of their energy resources. This includes 
resource assessments, geologic studies, economic analyses, and market 
studies.
    The Department currently holds in trust 55 million surface acres 
and 57 million acres of subsurface mineral estate throughout Indian 
Country. The potential on Indian lands for the development of both 
conventional and renewable energy resources is significant.
Renewable Energy Development
    More than 50 renewable energy projects are ongoing on an estimated 
35 reservations. This, however, is barely tapping into the renewable 
energy potential that exists in Indian Country. While the resources on 
these reservations have not yet been fully determined, the BIA has 
identified 267 reservations with renewable energy potential.
    An example of this great potential is the solar energy project on 
Moapa Band of Paiute's trust lands in Nevada, approved by the 
Department last year. This milestone project is the first-ever, 
utility-scale solar project approved for development on tribal lands. 
The project will generate lease income for the Tribe, create new jobs 
and employment opportunities for tribal members, and connect the 
existing tribally-owned Travel Plaza to the electrical grid, decreasing 
its dependence on a diesel powered generator. The procurement of 
construction materials and equipment is expected to generate additional 
sales and use tax revenues for the county and the State. In addition, 
the Tribe's agreement with the Los Angeles City Council for a 25-year 
power purchase agreement will provide enough energy to power over 
100,000 Los Angeles households.
Conventional Energy Development
    The BIA is also working closely with tribal nations that are 
interested in developing conventional energy resources. Together, BIA 
and Indian tribes are defining, quantifying, and developing tribal 
energy resources for industrial scale energy production. The Department 
has estimated that energy and mineral development on Indian lands in 
2012 supported over $16.0 billion of economic activity and nearly 
120,000 jobs related to trust resources. In the last three years, IEED 
assisted Indian mineral owners in the negotiation of 55 leases for oil, 
gas, renewable energy, and aggregate materials development on 
approximately 3.1 million acres.
    The IEED assisted the Three Affiliated Tribes of the Fort Berthold 
Reservation in the negotiation of lease agreements with oil and gas 
companies that have allowed the Tribes to share in the success of the 
oil and gas leasing boom in the Bakken Formation in the Williston 
Basin. In 2011, over 200 drilling permits and associated rights-of-ways 
were approved in the area. In 2012, the number of drilling permits and 
associated rights-of-way permits rose to over 300. Also in 2012, the 
Department approved a fee-to-trust application from the Tribes to build 
a refinery on the Fort Berthold Reservation. Once all required 
approvals are obtained, this will be the first new refinery built in 
the U.S. in more than 30 years.
Advancing Indian Education
    Education of Native American children is an issue of paramount 
concern. These children experience some of the highest levels of 
poverty in the United States, which not only affects the possibilities 
for their academic success but may also limit other possibilities for 
success later in life. The Administration is committed to ensuring 
Native American students receive an academically rigorous, culturally 
appropriate education that will prepare them to be productive citizens 
and leaders in their communities and help build safer, stronger, 
healthier, and more prosperous Indian communities.
    The BIE elementary and secondary school system currently has 183 
academic or resident-only facilities located on 64 reservations in 23 
States. During the 2011-2012 school year, the BIE-funded schools served 
nearly 48,000 individual K-12 American Indian students and residential 
boarders. After accounting for transfers, absences, and dropout rates, 
this equates to an average daily membership of around 41,000 students. 
Currently 125 of the BIE's schools are tribally-controlled with grant 
support funding helping to cover administrative and indirect costs 
incurred by tribes operating contract and grant schools. The BIE also 
operates two post-secondary schools, administers operating grants to 27 
tribal colleges and universities and two tribal technical colleges, and 
promotes post-secondary opportunities with scholarships to 
approximately 32,000 students attending other institutions of learning.
    The BIE's mission is to provide quality educational opportunities 
from early childhood through life in accordance with a tribe's needs 
for cultural and economic wellbeing while respecting the diversity of 
Indian tribes as distinct cultural and governmental entities. The BIE's 
vision for success includes:

  <bullet> Maximizing student achievement--Teaching its students well 
        is the number one priority for BIE. Effective instruction is a 
        critical element in turning BIE schools around. The BIE has 
        increased the number of School Improvement Grants to encourage 
        school turnaround models across BIE schools.

  <bullet> Advancing Indian education through self-determination--Self-
        determination and self-governance are an integral part of 
        advancing Indian education. Over the past year, BIE consulted 
        with tribal governments and their leaders on topics such as the 
        Johnson-O'Malley student count, the Indian Affairs 
        Administrative Assessment, and the Public Law 100-297 grant 
        assurance form. Consultations have resulted in agency-wide 
        collaborative efforts in the areas of education, language, 
        culture, and economic development.

  <bullet> Optimizing school operations--To support the President's 
        commitment to provide every student even footing when it comes 
        to education, BIE has expressed a desire to adopt the Common 
        Core State Standards, as have 46 States and the District of 
        Columbia, to allow BIE to pursue a unified system of standards, 
        assessments, and accountability rather than using the 
        standards, assessments, and average yearly progress definitions 
        of the 23 different States where BIE schools are located.

  <bullet> Improving school facilities--Indian Affairs provides funds 
        for facility programs for 183 academic and resident only 
        campuses. From 2002 through 2012, $2.0 billion has been 
        invested in construction, improvement, and repair projects that 
        have reduced the number of schools in poor condition from more 
        than 120 to 63. This includes 42 complete school replacements 
        and 62 major renovations, which are either completed, funded or 
        under construction. The physical state of our schools remains a 
        significant challenge, as it does for so many other parts of 
        the Interior infrastructure.

  <bullet> Seeking partners--The BIE signed eleven Memorandums of 
        Understanding, Memorandums of Agreement, and cooperative 
        agreements with other federal agencies, tribal colleges, and 
        tribal governments to increase access to new programs and 
        initiatives as well as to build capacity at tribal colleges and 
        within tribal governments. The BIE recently partnered with 
        Teach for America to increase BIE-funded schools' access to 
        highly qualified teachers in hard-to-fill locations in the BIE 
        system.

Protecting Native Communities and Natural Resources Through Climate 
        Change Adaptation
    The Department recognizes that climate change may 
disproportionately affect Indian tribes and Alaska Natives because they 
are often heavily dependent on their natural resources for economic 
development and cultural identity. The Department has a special role to 
play in working with Indian tribes to safeguard resources and to 
maintain fish and wildlife needed for subsistence harvests. These 
protections are especially critical for Native Alaskan populations 
given the rate of change observed in the state. Given these 
responsibilities, the BIA will have an essential role in the 
Department's response to the impacts of climate change in Indian 
Country.
    Climate change impacts are becoming increasingly evident for Indian 
tribes, and tribal leaders have voiced their growing concerns with the 
effects of climate change on their surrounding environment. For 
example:

  <bullet> In Alaska, the loss of sea ice and resulting shore erosion 
        places subsistence life-ways at risk as well as entire 
        communities experiencing coastal erosion;

  <bullet> The Fond du Lac Band of Lake Superior Chippewa Indians lost 
        its entire wild rice crop last spring in a record flood;

  <bullet> For the Confederated Tribes of the Umatilla, the Chinook 
        were late again this spring, resulting in one ceremony without 
        fish and the late root crop just delayed another traditional 
        feast;

  <bullet> In Oklahoma, Kansas, and the Southwest, extended drought has 
        decimated crops and groundcover, and allowed the wind to move 
        soils, making recovery harder once the drought does break.

    These types of events pose significant challenges to any affected 
community. For Indian nations, these challenges are exacerbated because 
they not only impact Native economies--they also threaten Native 
cultures. The Cooperative Landscape Conservation Program, BIA's primary 
climate change adaptation program, allows the BIA to expand tribal 
climate adaptation planning and increase BIA capacity to transfer 
technical information. The Program engages field level managers, Indian 
Affairs staff and tribal representatives and provides them with the 
opportunities to improve technical skills.
    Other programs at the Department address climate change adaptation 
as a key purpose, such as the Department's nationwide network of 
Landscape Conservation Cooperatives, which allows the BIA to assist 
tribes in identifying and implementing strategies to address impacts on 
tribal lands. Another example is the work of the United States 
Geological Survey (USGS) to identify best practices for the potential 
integration of traditional ecological knowledge into science and 
funding opportunities. To this end, USGS is interviewing Indian elders 
who are familiar with the local climate and terrain. This facilitates 
the incorporation of different and traditional forms of knowledge that 
allow for a more comprehensive understanding of the complex challenges 
posed by climate change. The indigenous knowledge encompasses 
observations, lessons, and stories about the environment that have been 
handed down for generations. This data provides a long history of 
environmental knowledge and also can help uncover new areas for 
scientific study.
Promoting Self-Governance in Tight Fiscal Times
    For the Country as a whole, one key challenge moving forward is the 
uncertainty of the Nation's budget. In these hard fiscal times, tough 
choices and hard decisions will have to be made at all levels of 
government. As I said in my introduction, the cornerstone of my policy 
as Secretary of the Interior will be centered on promoting self-
governance and self-determination, and the inherent right of tribal 
governments to make their own decisions to strengthen their 
communities. Nonetheless, given the financial climate, tough choices 
must be made with respect to Departmental programs. One such decision 
involves the need to balance funding for contract support costs with 
funding for direct programming and other tribal priorities within 
constrained resources.
    Congress and the Administration have not fully funded contract 
support costs for many years. Shortfalls in the Department's 
appropriations for contract support costs have led to litigation to 
recoup unpaid support costs, most recently in a Supreme Court decision 
in Salazar v. Ramah Navajo Chapter, 132 S. Ct. 2181 (2012). The 
Administration intends to consult with tribes and work with Congress on 
a long term solution that will further promote the shared goal of 
tribal self-determination and self-governance.
    The President's Budget for Fiscal Year 2014 has two key features 
related to contract support costs. First, it proposes $231 million for 
contract support costs, which is $10 million more than the Fiscal Year 
2012 enacted level, and approximately 91 percent of the amount 
identified in the most recent projections as the estimated full funding 
requirement. Second, to accompany the proposed appropriations language 
in the President's Budget for Fiscal Year 2014, the Department will 
submit to the House and Senate Committees on Appropriations a Contract 
Support Cost Table that identifies an amount to be made available for 
each self-determination contract for Fiscal Year 2014, consistent with 
one of the Supreme Court's solutions. The appropriation will also make 
available a lump-sum amount for contract support costs associated with 
new or expanded self-determination contracts. This would provide 
certainty to tribes on the funding they will receive. The contract 
support costs proposal in the President's FY 2014 Budget is designed to 
be an interim step toward a long term solution reached by working with 
Congress and consulting with Indian tribes.
    To be clear, the Administration is strongly committed to supporting 
and advancing self-determination and self-governance for Federally-
recognized tribes. For the reasons discussed above, I hope a long-term, 
mutually beneficial solution can be achieved by working with Congress 
and consulting with Indian tribes.
Regulatory Reform
    As part of this Administration's goal to improve regulatory 
processes, the Department has been looking at a number of areas, 
including programs within Indian Affairs.
    Reform of the Federal acknowledgment process is a high priority for 
the Department. The acknowledgment of the continued existence of 
another sovereign entity is one of the most solemn and important 
responsibilities undertaken by the Department. Federal acknowledgment 
permanently confirms the existence of a nation-to-nation relationship 
between a Federally-recognized Indian tribe and the United States. The 
work of Assistant Secretary Washburn and his staff on this issue is 
important and we are committed to improving the process
    The Department's process for acknowledging an Indian tribe provides 
for the Assistant Secretary for Indian Affairs to make a decision on 
whether to acknowledge a petitioner's government-to-government 
relationship with the United States. Some have criticized the process 
as expensive, inefficient, burdensome, intrusive, less than transparent 
and unpredictable. The Department is aware of these critiques, and we 
are reviewing our existing regulations to consider ways to improve the 
process and address these criticisms and concerns. With this in mind, 
the Department is actively working to develop draft revised Federal 
Acknowledgement regulations and will be initiating the Tribal 
Consultation soon. Pending the outcome from tribal consultation, the 
next step would be to release the proposed rule for public comment, 
which will be published in the Federal Register. While the current goal 
is to publish a final rule sometime in 2014, the timing for publication 
of a final rule depends upon the volume and complexity of comments and 
revisions necessary to address the comments received.
Conclusion
    Thank you for the opportunity to share my views with the Committee 
on some of the critical issues affecting tribal nations. I look forward 
to working with you as we collectively work to uphold our 
responsibilities.

    The Chairwoman. Thank you, Secretary Jewell.
    You mentioned taking land into trust. Obviously the agency 
has acquired over 200,000 acres in trust for tribes and 
individual tribal members. Why do you think it is important to 
still get a Carcieri fix if the agency is able to continue to 
do this?
    Secretary Jewell. The key issue of the Carcieri fix is one 
of resources. The way Carcieri is written with the requirement 
that we have to identify that every tribe was federally 
recognized back in 1934 requires a lot of staff time to assess 
records and prove all of that. It is almost universally 
litigated at the end as people cross check that work.
    When you think about effective use of limited resources in 
Federal Government, without a Carcieri fix, we cannot 
effectively use our resources and we get sued for just about 
everything we do. I think it really is a function of trying to 
put our resources where they need to go and assessing the land 
values, making the transfers and carrying through the trust 
obligations and not spending our time researching historical 
records and fighting lawsuits.
    Larry, do you have anything you want to add?
    Mr. Roberts. I just want to add that it does have real live 
consequences. For example, I am a member of the Oneida Nation 
of Wisconsin. When we acquire land within the boundaries of our 
reservation and someone challenges that acquisition, the Oneida 
Nation was one of the first nations to sign treaties with the 
United States from 1794, so the notion we were not under 
Federal jurisdiction in 1934 is mind boggling.
    It is those resources that not only the Federal Government 
is contributing to analyze this issue, but it is the resources 
of tribes taking money away from other limited resources and 
pouring those into applications and litigation. I think it has 
real life consequences in Indian Country and for the 
Department.
    The Chairwoman. You stated both your interest and the 
Administration's interest to honor treaty obligations and trust 
responsibilities. The Department has a number of bureaus and 
agencies with a duty to honor that responsibility as well. 
Frequently Interior offices, like the Office of Policy 
Management and Budget or the Bureau of Oceans Management have, 
in my opinion, exhibited a lack of understanding of those 
obligations to protect treaty rights.
    Specifically, will you ensure that the Bureau of Ocean 
Energy Management in its trust responsibility will engage with 
coastal tribes as they move forward in important roles like 
national ocean policies and things of that nature?
    Secretary Jewell. Yes is the short answer. The slightly 
longer answer, just to use an example from our home State of 
Washington, the Bureau of Ocean Management, Pacific Team, has 
been working with a number of tribes on offshore issues in the 
State of Washington. I know they have convened with the 
Quinault, Makah, Quileute, Hoh, and Shoalwater Bay Tribe last 
November to talk about these issues. That is just an example 
from our home State.
    In talking with Tommy Beaudreau, who is director of that, 
it certainly is a commitment to working with tribes on offshore 
issues. As we look at both renewable development, as well as 
conventional development, particularly renewables, tribes will 
have an important seat at the table as we come up with these 
plans.
    The Chairwoman. I am sure you know that places like Neah 
Bay can be treacherous waterways. The Makah Tribe has basically 
become a Federal partner with the Coast Guard in the protection 
and management of that area because it is so remote. I would 
hope the agency would have the same partnership mentality when 
it comes to working with tribes on these resource issues.
    I have just a last question. Will you commit to appointing 
a team to work in resolving outstanding issues as part of the 
Spokane settlement legislation?
    Secretary Jewell. A quick answer to that is I am happy to 
have some people work on that, specifically Alaska Assistant 
Secretary Kevin Washburn to look into it, to bring some 
resources to the table to better understand exactly what the 
issues are what we might be able to do to address them.
    The Chairwoman. Thank you.
    Vice Chairman Barrasso.
    Senator Barrasso. Thank you, Madam Chairwoman.
    I want to talk about irrigation. At no less than eight 
committee hearings, I have raised the issue of the enormous 
backlog of deferred maintenance on the 15 Indian irrigation 
projects operated by the BIA. Assistant Secretary Washburn 
recently testified there was no long term plan to address the 
backlog.
    While there has been some progress in assessing the extent 
and the valuation of the deferred maintenance, we are a long 
way away from a plan to address the problem and the causes of 
the problem. Will you commit to making this deferred 
maintenance problem a high priority within the Department?
    Secretary Jewell. Senator, I appreciate the maintenance 
issue. I know there are some specifics in your region--I think 
the Wind River is one area of particular concern. I know we 
have an opportunity to charge operating and maintenance for 
these projects to customers to help reimburse the costs. That 
should be part of the offset.
    It will be important for me to know more about this, to 
have Kevin work with you or your staff on this to figure out 
how we can address the issues. It certainly doesn't make sense 
to build projects and not be able to maintain them.
    Senator Barrasso. We will go into additional depth on that 
but the amount they are able to charge for the services they 
are receiving are so dwindled because of the lack of 
maintenance that it is hard to charge for the services they are 
not getting. That is kind of the issue there.
    With regard to park safety, as with irrigation, I have 
raised the issue of safety at the Grand Teton National Park 
with the Department on several occasions. We discussed this in 
a letter to Park Service Director Jarvis dated February 1 and 
then I mentioned it to you on March 6 in our meeting with 
follow up questions at your confirmation hearing on April 8. 
Then we had a phone conversation on April 26.
    The safety of the park visitors is extremely important and 
I have not yet gotten a response from you or the Department. I 
have another copy of the letter here and perhaps can get it to 
you today. I would just ask that I get some answers to my 
concerns.
    Secretary Jewell. I will check into it. I am sorry you 
haven't had a response. Is this on the road?
    Senator Barrasso. Yes.
    Secretary Jewell. The bicycles?
    Senator Barrasso. Yes, the pathways and the road.
    Secretary Jewell. I will figure out where that is.
    Senator Barrasso. Thank you, Madam Secretary.
    With regard to energy, for some tribes oil and gas revenues 
make up a substantial portion of the tribal operating budget 
which is used for essential tribal services. As I understand 
it, the BLM is expected to release new regulations on hydraulic 
fracturing very soon.
    I just hope you realize that any new regulations are likely 
to exacerbate delays and costs and continue to hinder tribes in 
their efforts to develop their trust mineral resources. Have 
you done any economic analysis on the negative impacts that any 
new hydraulic fracturing regulations will have on tribal 
economies?
    Secretary Jewell. Senator, we are close to releasing the 
proposed rule and there will be a comment period after that. We 
do not anticipate additional costs associated with this. We 
have worked I concert with industry to come up with the rules. 
We have also looked at the science that is out there.
    Our obligation, as it relates to tribal matters, is to 
ensure that we are overseeing the appropriate procedures on the 
subsurface mineral estate. It is our obligation to do that so 
it is carrying out that obligation and fulfilling the 
regulations. I don't anticipate that it would cost the tribes 
any more.
    Senator Barrasso. The Office of the Inspector General 
issued a report on Indian oil and gas leasing last September. 
It identified several problem areas, including lack of a 
coordinated strategy or organizational structure to manage the 
BIA's oil and gas activities, extra layers of governmental 
review and complexities associated with self-determination by 
the tribes. These are some of the problems identified, not by 
us, but by the Office of the Inspector General that push oil 
and gas develop off Indian reservations.
    One of the recommendations was that the Department of the 
Interior should work with Congress in improving something we 
worked on which is the Tribal Energy Resources Agreement. Last 
year, I introduced a bill designed to do that. Will you work 
with the Committee to help implement these recommendations from 
the Office of the Inspector General?
    Secretary Jewell. Yes, I would be happy to work with the 
Committee. I will tell you that in discussions with my 
colleagues in Indian Affairs, there is a commitment to 
streamline leasing, in general, on Indian reservations. 
Certainly that encompasses leasing for mineral development.
    Senator Barrasso. Madam Chairwoman, I have additional 
questions on education, law enforcement, energy and wild horses 
on Indian land. Perhaps I could submit those for written 
answers.
    The Chairwoman. Absolutely. We will keep the record open 
for members to do just that and get responses.
    Senator Johnson.
    Senator Johnson. Secretary Jewell, as you know building a 
house in Indian Country is not a simple process. Each Federal 
agency plays a role from obtaining the lease, ensuring proper 
water infrastructure and leveraging the funds.
    As Chairman of the Banking, Housing and Urban Affairs 
Committee, it is important to me to find solutions to our 
critical housing needs. How will you ensure that Interior 
programs are working effectively with other federal agencies to 
address the dire need for Indian housing?
    Secretary Jewell. Thank you, Senator Johnson.
    I think there are things that we can do and things we can 
do working with other agencies. In terms of what we can do, 
there is no question that leasing lands for housing or other 
purposes in Indian Country has been a cumbersome process, one 
where one size doesn't fit all and yet we have had the same 
process no matter whether it is a complicated, commercial 
enterprise or a single family residence. There are 
opportunities to improve that and those are underway.
    Second, in working with other agencies, Housing and Urban 
Development is a place with which we need to work. I am 
actually having dinner with Secretary Donovan tonight. I am 
building a relationship with him and getting to know the 
resources HUD has and how that knits together with the Bureau 
of Indian Affairs and our responsibilities in Indian Affairs 
broadly.
    Larry, do you want to add anything to that?
    Mr. Roberts. I know this has been a high priority for 
Assistant Secretary Washburn as well. I know he has already met 
with HUD on issues and where we can collaborate on this. Also, 
with regard to our new leasing regulations, hopefully that will 
streamline issues of leasing for housing.
    Senator Johnson. I have had Secretary Donovan visit with me 
at the Rosebud Indian Reservation in South Dakota.
    As you know, the Department of Interior operates one of two 
federally-operated school systems. In my home State of South 
Dakota, nearly 60 percent of BIE or tribal-controlled schools 
are in poor or fair condition according to the Education 
Facility Condition Index.
    With the elimination of funding for education construction 
and a decrease to ISEP funds, how does the Interior ensure our 
children are learning in an adequate and secure environment?
    Secretary Jewell. Senator, you identify a very, very 
difficult issue that I would say is going to require our 
cooperation and working together. We cannot repair and replace 
schools without money. We are prioritizing our budget in these 
lean times on what happens in the classroom and on repairs and 
maintenance as opposed to school replacement.
    Over the last ten years, we put $2 billion into school 
replacement and upgrades, including $300 million of stimulus 
money. We have to make sure we are maintaining the structures 
we have. In a tight budget, the 2014 budget focuses on repairs 
and maintenance and not on new construction.
    I don't know if there are creative ways. I asked in the car 
on the way here whether there was an opportunity for private 
philanthropy as happens in so many other areas to support this. 
I don't think that legislation allows that right now but it is 
an attractable challenge. I know that a learning environment 
where people feel respected is more conducive to high quality 
learning than one where children don't feel valued.
    I think you identify an important issue that I will need 
your help in addressing.
    Senator Johnson. Secretary Jewell, you mentioned in your 
testimony that we have not fully undertaken the potential for 
energy projects in Indian country. Many of the South Dakota 
tribes are interested in wind and solar energy, both large 
scale projects and residential scale projects.
    Please explain the Interior's plans for working on tribal 
energy projects in tribal communities and on tribal lands.
    Secretary Jewell. As I mentioned in my opening statement, 
there is a lot of potential in surface development of renewable 
energy projects. We have 50 projects underway on 35 
reservations right now. There are great examples of local solar 
that supports local businesses. In one particular case in 
Nevada, there is a utility scale solar project.
    It is definitely a priority to address that because it can 
help lift those tribes economically and provide reliable 
sources of power. It is certainly on our radar. I think there 
are opportunities to overhaul outdated leasing practices and 
engage the Hearth Act signed into law to help streamline and 
smooth out those projects.
    Senator Johnson. My time has expired. Thank you.
    The Chairwoman. Thank you.
    Senator Hoeven.

                STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Hoeven. Thank you, Madam Chairwoman.
    Madam Secretary, it is good to see you again. Deputy 
Secretary Roberts, it is good to see you. Thank you for your 
help. I want to express my appreciation. I am going to touch on 
the subject of Spirit Lake in just a moment.
    In general, law enforcement is a real need on all of our 
reservations. In the 2013 budget, the Administration did not 
fund $3.5 million that BIA requested for law enforcement. In 
the Senate budget, I inserted that $3.5 million for law 
enforcement. It is a crying need in our part of the world and I 
think probably all over on reservations.
    We put it in the 2013 budget. My question is in the 2014 
budget, are you satisfied that you have adequate funding for 
law enforcement and child protective services?
    Secretary Jewell. I will address the law enforcement. We 
have an increase of nearly $20 million for public safety and 
justice in the 2014 budget. From talking with some of the U.S. 
Park Police, the effort we made in putting a surge into 
reservations with law enforcement from a variety of different 
agencies proved that additional law enforcement resources would 
make a significant difference. The 2014 budget represents a 
step in the direction of implementing some of the learning from 
that.
    It will provide I think $5.5 million for additional law 
enforcement personnel and another $13 million for detention 
centers that are tribally-operated in Indian country.
    In terms of child welfare, I think it is fair to say it 
would be difficult to put enough money into that really 
important program. It is critical. It is what Assistant 
Secretary Washburn is doing right now, working with tribes in 
South Dakota on this difficult issue. I cannot speak 
specifically to the 2014 budget. Do you know, Larry, how much 
is in their for child welfare?
    Mr. Roberts. I don't have that information in front of me.
    Secretary Jewell. We will find out and make sure we get 
that to you specifically as it relates to child welfare.
    Senator Hoeven. I appreciate your commitment to come to our 
State. I know we are working on that schedule right now. We can 
provide you with very different examples that create some of 
the same challenges.
    For example, as we have talked and as Deputy Secretary 
Roberts has seen firsthand, we have issues with social service, 
child protective services on the Spirit Lake Nation. BIA, of 
course, has now taken over and is working to remedy that. I 
think it is very important that you see it. As I say, Deputy 
Secretary Roberts has been there.
    I think that level of commitment is very much needed and 
will help in terms of the whole effort, both to make the real 
progress we need to make, but also for transparency.
    Another example we want to show you is the whole energy 
patch. The Three Affiliated Tribes, another one of our 
reservations, is right in the middle of this incredible energy 
play so they are going through this huge boom in terms of 
development and drilling but that also creates law enforcement 
needs.
    You have this influx of people so different situations but 
both emphasize the incredible need to make sure we are 
addressing law enforcement and social services, the whole gamut 
of things, not only child protective services but drug 
addiction and so many of these things. We want to get them 
going economically or help them, but we really cannot do it 
without having the kind of law enforcement, social services in 
some of the fundamental, basic areas so that people feel safe 
and protected.
    Your coming is very important so you get a firsthand look. 
I know you want to see the energy aspect of it too and we are 
very much interested in that.
    The hydraulic fracturing is very important. You and I 
talked about this before. It is very important to States but it 
is really important to tribes and another reason for you to 
come out and see. We will show you a reservation, Three 
Affiliated Tribes, doing incredible things. They have just 
broken ground on a new refinery, green field refinery. Think 
how amazing that is. They need to be able to hydraulically 
fracture.
    How these rules come out will be very important. I want 
your commitment that you will work with the States and the 
tribes on a rule that works.
    Secretary Jewell. You have my commitment. We have been 
working with the States and the tribes on the rules that will 
be released shortly. You have my commitment to continue to make 
sure that this is a collaborative process. I would throw 
broader stakeholder groups into that mix as well.
    Senator Hoeven. I appreciate that. I think you will find 
there are tremendous things we can do on transparency and 
everything else if we just work together to have something that 
is simple and straightforward and empowers States' first 
approach that would apply to the tribes as well.
    Secretary Jewell. Just to be clear, on the Subsurface 
Mineral Estate, on tribal lands, our responsibility is the same 
as it is on Federal lands which is to be the regulator on those 
resources as distinct from State lands. We are certainly 
working alongside States to align regulations. You will see 
that in any proposed rules that come out.
    I just wanted to say that our obligation to the tribes is 
to manage the Subsurface Estate on their behalf by statute.
    Senator Hoeven. Madam Chairwoman, just a brief indulgence.
    If we can follow the approach that we have taken both with 
Interior and the White House like our BLM streamlining 
legislation where we have worked together, that is the kind of 
approach I am talking about where I think we can do good 
things. That is what I am asking for.
    The Chairwoman. Thank you.
    Senator Tester.
    Senator Tester. Thank you, Madam Chairwoman.
    I want to talk about water project funding first. The DOI 
has authorized the Montana loan, two projects, several hundred 
million dollars each. Have you been able to talk to 
Commissioner Connor about the size and scope of the projects? 
Good.
    I would just say a lot of these water projects, at least 
the two in Montana, are offsprings of the Water Compact 
Agreements. This particular year, we have about $5 million to 
build them. At this rate, I can tell you by the time the 
projects get done they are going to have to start over and 
rebuild them because they will be worn out. I will be long dead 
and gone and dust by the time these projects get built.
    Is there a plan to move forward on these projects in a way 
that will get them done in a reasonable amount of time?
    Secretary Jewell. I will give you the information that I 
have and will ask my colleague, Larry, to weigh in on more 
detail.
    We have in the 2014 budget about $40 million in the request 
for rural water projects.
    Senator Tester. For the whole country?
    Secretary Jewell. Pardon me?
    Senator Tester. For the whole country?
    Secretary Jewell. Yes, for the whole country. These are 
expensive projects. There is not a lot of excess money to go 
around. I would love to see where I get additional money and 
would certainly welcome your support in advocating for that.
    I have a list of where the projects are. The one I see in 
Montana is north central Montana, the Rocky Boys.
    Senator Tester. That is one and then northeastern Ft. Peck 
is the other.
    Secretary Jewell. Ft. Peck is another $4.3 million. Montana 
is doing well out of the list that I have but there is way too 
much of a need relative to the funds.
    Senator Tester. Exactly right. Here is the deal. You get 
one finger pointing that way, you have three fingers pointing 
back at Congress and that is no truer than in this situation. I 
am telling you that you have to fight if you can allow me to 
fight. The truth is these projects are never going to get done.
    It was 1998 when I got in the State Senate. These were $100 
million projects and now they are over $300 million each. It is 
just not happening. If there is a way you can develop a plan, I 
think we can get people to support it to get it done.
    Little Shell has been recognized, they have been turned 
down, they have said yes and no. Honestly, straight up, are you 
going to reconsider Little Shell as far as recognition?
    Secretary Jewell. As I understand specifically as it 
relates to Little Shell, there is litigation so I have been 
advised that I cannot comment on Little Shell specifically 
because of the litigation.
    Senator Tester. That's all right. That's okay.
    I have another situation that deals with firefighting 
costs, the Hazardous Fuel Reduction Program. Good, you are 
nodding your head.
    A couple of years ago, it was at $206 million and last 
year, $183 million. This year you are asking for $96 million. I 
could ask you a lot of questions about is there 60 percent less 
fire danger than there was three years ago or is it more or 
less expensive to do mitigation versus fighting fires.
    I won't do that. What I am going to ask is this. I think 
the Ranking Member talked about when reservations were set up, 
there were blocks of land set up and tribes were sent there to 
live. In our particular case, we have one in western Montana 
called Salish & Kootenai. Their hazard fuel reduction program 
has been cut extensively. They do a hell of a job with that 
money, quite frankly. That is not brag, that is fact.
    These guys didn't have a choice, they were put there, to 
live there and now they can't do the mitigation. On the other 
side, just using fairness, we have mansions built in the middle 
of the forest so damned deep you have to pump light into them 
through a tube. When those catch on fire, they burn but they 
are mansions.
    My question I have is this. Is it really fair to short 
change the Native Americans who were told to live there versus 
the people who choose to build a house in the middle of the 
wilderness?
    Secretary Jewell. Senator, I just returned from NIFC, the 
National Interagency Fire Center in Boise, Idaho. I had an all 
hands meeting with all Interior and Forest Service staff. I 
went with Secretary Vilsack.
    We have a Sophie's Choice to make as it relates to 
firefighting in the budget we are dealing with. There is not 
enough money for hazardous fuel reduction. We have to 
accommodate fire within our budget. There is not the capacity 
to use emergency funds unless it is specifically authorized. We 
treat hurricanes and floods as emergencies. We do not do the 
same with fires.
    When you have a limit on what you can spend, you put more 
into suppression because you have to put out the fires. There 
is a responsibility of homeowners to clear the area around 
their land. I used the megaphone I had and it was in the 
newspaper to make sure that homeowners recognize the 
responsibility.
    We are making decisions to suppress fires now because we 
have to suppress certain fires instead of doing hazardous fuel 
reduction because we don't have enough money to support both.
    The jobs you referenced on reservations, the jobs in rural 
communities associated with hazardous fuel reduction are very 
important.
    Senator Tester. And effective.
    Secretary Jewell. And effective. They are being impacted in 
2013 significantly by the sequester and in 2014 by the overall 
budget limit and the fact we know that we have to fight fires.
    There is, I think, a potential solution in terms of taking 
emergency firefighting outside of the regular budget process so 
that we can effectively look at hazardous fuels reduction in 
the future. We have run over on that one.
    Senator Tester. I got it and I have one point and I will 
let you go. I apologize, Madam Chairwoman.
    We have three fires burning in Montana right now. This is 
the middle of May. This is our rainy season.
    Secretary Jewell. It is early.
    Senator Tester. This is not going to get any better. I know 
climate change is on your radar screen and is certainly on 
mine. Unless we wake up around here, we aren't going to have 
the resources to manage because they are all going to be burnt 
up. I don't point that at you. I point that as much at us as I 
do you.
    Thank you for the work you do.
    Secretary Jewell. Thank you.
    The Chairwoman. Senator Franken.
    Senator Franken. Thank you, Madam Chair.
    We got into the sequester, we got into warming, we have a 
fire burning in Minnesota now, I understand. Talking about 
climate change, there is a lot of potential for renewable 
energy in Indian country. Indian country makes up just 2 
percent of the U.S. but contains 5 percent of our renewable 
resources.
    I particularly think that tribes have a lot to gain through 
the deployment of distributed generation which is you don't 
have to necessarily be connected to the grid. Distributed 
generation technology is like solar, small wind, methane 
digesters or geothermal can alleviate the need for large and 
expensive powerplants that have a lot of upfront costs.
    There is a lot of job creation potential in distributed 
generation. Those technologies are good for the environment.
    I have had really good conversations with DOE on these 
issues. I spoke a couple times recently with Dr. Dave Danielson 
who heads the Energy Efficiency and Renewable Energy section of 
the DOE. I asked him to work with me on these issues.
    The Departments of Interior and Energy have tribal 
assistance programs for these purposes. I want to make sure 
these programs are strengthened and coordinated. The other 
governmental agency that has a real interest in this is the 
Department of Defense. The military benefits from distributed 
energy technology at forward operating bases.
    We have lost a lot of men and women in Iraq and Afghanistan 
just in convoys hauling fuel for generators. It would be much 
better to have solar there in those theaters. We are doing that 
in Afghanistan now.
    In Minnesota, I recently hosted DOD Assistant Secretary 
Sharon Burke who is the lead on energy issues at DOD and talked 
to her about these very issues.
    I think there is a real opportunity for these three 
departments--Energy, Interior and Defense--to work together on 
renewable energy and distributed energy. I would really love to 
help on this. My question is, would you please commit to me 
that you will work closely with DOE and with DOD on these 
renewable energy issues, in particular on the issue of 
developing and deploying distributed generation on Indian 
lands?
    Secretary Jewell. Senator, I am happy to work on these 
issues. One of my early conversations through the confirmation 
process was with the Secretary of the Navy. It surprised me 
when he said we actually had a lot we were working on together. 
It was, in fact, around renewables. I recently had conversation 
about the research money Defense has put into renewables and 
distributed power. I think there are a lot of opportunities and 
I certainly look forward to working with them on that and DOE.
    I know Dr. Moniz is working his way through the process. I 
have been in regular contact with him. We have talked about 
these issues as well.
    We have a role to play in streamlining leasing and the 
process if these opportunities arise as well. There is no 
question that there is an opportunity for us to step up.
    Senator Franken. Everyone should realize that DOD is very 
much leading the way in renewables.
    Secretary Jewell. Yes.
    Senator Franken. It is really smart. It is about saving 
lives in theater. If you go to Walter Reed or Bethesda since it 
is now all Walter Reed, the soldiers there, the Army is there 
mainly because of IEDs, because they were in convoys.
    Will you work with your office and provide my office with 
recommendations on how we can achieve the goal of expanding 
distributed generation on Indian lands? Would you work up a 
plan? I would really love that.
    Secretary Jewell. Yes.
    Senator Franken. I am going to submit some questions for 
the record because I am running out of time. Obviously I 
brought up the Bug School in my opening remarks. Moving 
forward, I would love to keep working with you on that school 
and on school construction. I know the Chair is very interested 
in that as well. I am very concerned about it.
    Thank you. Thanks for being here. We are off to a good 
start.
    The Chairwoman. Senator Heitkamp.
    Senator Heitkamp. Thank you so much, Madam Chairwoman.
    You are going to feel like you were double teamed by North 
Dakota when I tell you how important we consider these issues 
to be.
    I want to follow up on an additional point beyond what 
Senator Hoeven talked about. Obviously we are deeply concerned 
about law enforcement resources and the role that you play. I 
want to make one point and encourage you to look at encouraging 
memoranda of understanding because the dual jurisdiction issues 
are critical.
    If you want chapter and verse, there have been a number of 
national stories about the challenges that we have trying to 
make all that fit. I hope when we introduce you to North 
Dakota, we will be able to talk a little bit about working with 
county sheriffs, local law enforcement and highway patrol to 
expand the ability to do additional law enforcement.
    I want to talk about law enforcement training because we 
know how critical that is. Right now, there is only one law 
enforcement training center that we are familiar with, BIA, and 
it is in New Mexico. United Tribes has been working on a law 
enforcement training center in Bismarck, North Dakota. They 
have been working on an MOU with BIA to try and provide basic 
law enforcement training.
    The MOU really has not moved near as we can tell. I am 
wondering if you are familiar with this or if you can give me 
any assurance that we are going to see that moving forward in 
the near future.
    Secretary Jewell. I have a great staff and as we discuss 
this in preparation for the hearing, we are open to exploring 
ways we can work more closely with the United Tribes Technical 
College on this in North Dakota. Larry, do you want to 
elaborate?
    Mr. Roberts. Just to say we already use the facilities a 
little bit to conduct training there but we are open to looking 
at how we can expand.
    Senator Heitkamp. Just to give you some background, the 
United Tribes also has a very good collaborative relationship 
with law enforcement throughout North Dakota so it would be a 
very good fit. I just want to put in a plug there.
    The second question I have relates to VAWA, some concern 
and awareness about the need to implement certain procedures 
before VAWA will work in Indian country or before they can 
begin to protect Native American women and children the same 
way we protect them outside of Indian country.
    What are you doing with the Department of Justice, with 
tribal governments and tribal courts to guarantee an early 
implementation in Indian Country of the Violence Against Women 
Act so that we can begin this protection as early as possible?
    Secretary Jewell. We are certainly delighted that VAWA 
passed. We appreciate the bipartisan leadership. It is a 
critical issue in Indian Country, so whatever we can do with 
the Department of Justice to ensure that it is implemented as 
intended and as swiftly as possible, we are committed to doing.
    I am going to turn to Larry for any specifics on what we 
are currently doing with Justice.
    Mr. Roberts. We are coordinating with the Department of 
Justice to implement those provisions. One of the things we are 
doing is looking at a two-year pilot project in which tribal 
courts can choose to exercise jurisdiction. We are 
participating with DOJ in their formal and informal 
consultations with tribes and we are doing our own training and 
technical assistance as well for tribes. I am trying to 
implement the VAWA provisions as quickly as possible.
    I know our Office of Justice Services and our tribal courts 
staff are working very closely with the Department of Justice 
to ensure implementation.
    Senator Heitkamp. Just to put a point on this, it is so 
critical given how hard fought this provision was and how 
incredibly necessary this provision was that we come out of 
this with a good, solid, couple first good steps and that we 
prove this up.
    Last, I would like to thank you for your assistance in 
Spirit Lake to recognize that we need to move forward in Spirit 
Lake in a respectful government-to-government kind of 
relationship as they work through their tribal government 
issues. We will continue to be very concerned about the 
protection of children on the Spirit Lake Reservation.
    If you could give a quick--I guess you only have 30 seconds 
and that would be quick--rundown on where you are with Spirit 
Lake.
    Mr. Roberts. I appreciate your leadership on this issue. I 
did go out to Spirit Lake for a public meeting. It was very 
helpful to meet with members of the community, meet with tribal 
leadership and hear directly in that conversation.
    One of the things that we heard loudest from that 
conversation was the need for continuity and to have permanent 
staff there. We are working very diligently to bring on 
permanent staff to run that program. We have hired two 
additional child welfare specialists and a social services 
assistant.
    We are in the process of advertising for the social 
services director position and are making great headway there. 
We are working closely with the regional office to ensure that 
it is fully staffed and to make sure that we do have good 
continuity.
    I also want to say that had it not been for the Assistant 
Secretary having to testify, he would have been out there 
personally. It is a high priority for Assistant Secretary 
Washburn and me.
    The Chairwoman. Thank you.
    Senator Begich.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much. I have a couple 
questions. It is good to see you. Thank you for being here.
    First a quick comment on how you view tribal consultation 
and I want to give you one piece of that. Tribal consultation 
may be different than what happens in the Lower 48 in Alaska 
because obviously we have village corporations and regional 
corporations recognized under ANCSA, which is our Native land 
claim settlement act. Could you give your general comment on 
that?
    Senator Jewell. Certainly. I want to even expand on the 
answer to Senator Heitkamp around MOUs.
    Tribal consultation, in everything we do, is critical. We 
want to work with tribes to be helpful to them. If it means 
partnering in law enforcement, child welfare services or 
education, we will take the tribes' lead in providing services. 
If they would like to do it themselves, we will bring whatever 
resources can be useful to them in carrying that out.
    Specific to Alaska, in my opening statement I referenced a 
bit about my own connections with regional corporations in 
Alaska and village corporations, certainly very directly with 
NANA, but also SeaAlaska, Doyon and several villages as a 
banker so I have an understanding of how those work with 
shareholders, without the reservations in the same way and with 
the tribal leadership as distinct from corporation leadership.
    When we think about tribal consultations there, it really 
is with tribal leadership. To the extent there is overlap, we 
will work with corporations but the corporations are set up as 
for-profit corporations generally, so we would work with tribal 
leadership, if that gets to your question.
    Senator Begich. It does. I want to encourage you that even 
under that scenario, we would encourage you with the village 
corporation leadership and the regional corporation leadership 
that you expand into that because it is a unique model.
    If we don't have this, we just have reservations, one 
entity, but because there is overlap but also because the 
corporations are the landholders on behalf of the tribes, it 
creates a unique situation that when you start talking about 
land use, corporations own it for the benefit of the 
shareholders which are the tribal members.
    It is a very complicated piece and I would encourage you as 
you think about that, in areas where you can't expand that, I 
would encourage you.
    We have a unique situation again because we don't have 
reservations and we also have Alaska considered Indian Country 
in total. This is more specific. It is Seward and Dillingham. 
The tribal members there do not have a designated tribe. They 
have been working on it since the 1990s. It has been moving 
forward but now has been delayed because there is no Alaska 
individual within your department they are waiting for 
recommendations from.
    Right now, you or consultation with Assistant Secretary 
Washburn could make this decision. We are worried because come 
January 1, they will lose their health care benefits because 
there is no tribe to associate with in order to get the health 
care benefits that as Alaska Natives, they are entitled to. 
There is a cross that is going to occur very quickly on January 
1, 2014.
    We have to get this resolved. It has been pending for a 
long time. We know there have been some errors in the process 
but now waiting for the Alaska person to be selected means more 
delay when you or Assistant Secretary Washburn could make the 
decision. We are worried that people who are qualified right 
now for Indian health services may become disqualified as of 
January 1 because of the way the Health Care Reform Act works. 
You have to have health care.
    If you are not associated with a tribe because you have to 
be enrolled in a tribe to get the health care but there is no 
tribe, now they are in a quandary. Do either of you want to 
respond to that?
    Mr. Roberts. I am familiar with the situation. I don't 
think it will be hung up just because there is a regional 
director vacancy. It is something I am working on personally 
and we are working through that process.
    Senator Begich. We appreciate it. Our office would be happy 
to help in any way on that issue. You can see the dilemma that 
is about to occur which should not occur because of their 
current requirements or opportunity to get health care.
    I know in your opening statement you mentioned climate 
change. Depending on what committee we are in, you always want 
to debate the science. I am not interested in that. Science has 
proven itself. The bottom line is in my State, the environment 
is changing rapidly. We are at ground zero when it comes to 
climate change.
    As strong as I am on supporting oil and gas development, 
you have heard that presentation from me before, I also 
recognize we have an obligation. In Alaska, we will be 
utilizing renewable energy at a rate of 50 percent of our use. 
By 2025, we will be the highest percentage in the country. At 
the same time we are seeing the effects of global climate 
change and climate change overall.
    I am very happy the Interior Department has some focus on 
this. I want to echo that we are anxious to work with you. You 
are right about the Navy. The Navy also has a Climate Change 
Task Force which is working on these issues because they have 
multibillion dollars of issues.
    I would be interested at some point to hear from the 
Interior Department what the economic impact would be if we 
don't address these issues around the changing climate. The 
Navy is doing it now and it is going to be in billions because 
they have to change ports. That is just a fact. You have 
infrastructure and other issues that are related.
    I would be curious and something in the future if you 
wouldn't mind sharing with us as a committee or individually 
how you see climate change impacting the work you do at the 
Interior Department and the economic cost. I get the 
environmental issues. I think people are missing the boat on 
what it is going to cost us. I know what it is doing to Alaska. 
We are literally losing villages and will probably be the first 
refugees because of climate change. We have lost villages into 
the ocean.
    I don't know if you have any comment and I will end there.
    Thank you, Madam Chair.
    Secretary Jewell. I need to look into that in terms of our 
capacity to do economic analysis on that and balancing that 
with the needs. It is certainly an interesting exercise.
    In my opening comments, I talked about Alaska really being 
on the leading edge, unfortunately for you.
    Senator Begich. Or the falling edge.
    Secretary Jewell. Or the falling edge of climate change.
    The Chairwoman. Senator Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you very much, Madam Chair.
    It was very interesting to listen to my colleagues and all 
the great concerns they have. I appreciate many of them and 
share their concerns and will add a few here.
    As you know, Madam Secretary, your department is really at 
the front of the trust responsibility. It is your effort that 
gets out there and weighs in to make sure the trust 
responsibility works in specific circumstances. The first one I 
want to focus on is the wild fires in the west.
    In the last few years, New Mexico has been hit with record-
breaking fires. After the fires, we have flooding that is many 
times worse than the fires that occur and the watersheds are 
damaged, wildlife, all of that. We are talking about 46 percent 
of New Mexico Federal land and another 11.3 percent tribal 
land.
    My question is, how is the Department of the Interior 
coordinating with tribes in New Mexico and other States on fire 
preparedness, fire suppression and post-fire remediation? It 
seems to me all of those things are absolutely crucial when we 
look at Indian country and the impact wild fire has on it.
    Secretary Jewell. I am fresh back this week from a visit to 
the National Interagency Fire Center in Boise. One of the 
striking things about the visit was it truly is interagency. It 
is about triaging and fighting fires or putting resources where 
they need to be most for the landscapes without regard to who 
that land manager is.
    The BIA was at the table, the U.S. Forest Service was at 
the table, the Bureau of Land Management and other agencies 
working collectively together. It didn't matter what bureau or 
what department.
    There is not enough money to go round for the fire risk 
that we face, so we have to prioritize within that. Senator 
Tester had some similar issues he raised. New Mexico, just in 
looking at the fire risk chart, is in serious shape in terms of 
dryness and multiple years of very high temperatures and low 
water. We are aware of the risks throughout the west but 
specifically to your State as well.
    The money is being prioritized for suppression. It does not 
support the longer term needs. We really need additional 
resources to do the longer term needs of both prevention, which 
is hazardous fuels removal, and prescribed burns, which are 
controversial but an essential way of helping clear the 
landscape.
    Post-fire remediation, I can tell you specifically on BLM 
lands, we are only able to reseed a fraction of what actually 
burns. When you think about sage grass habitat, for example, 
other critical habitats if we don't get in and reseed, 
cheatgrass takes over and increases the fire risk but there is 
not enough money to go around.
    One of the things I would like to see changed, and would be 
happy to work with the appropriate committees here, is take the 
emergency firefighting out of our day-to-day budgets because it 
makes it very difficult to put that in an emergency fund so 
that we really focus on long term, sensible management of our 
lands around fire because it is not going to get better, it is 
going to get worse in climate change.
    Senator Udall. No doubt about it and it seems to me with 
all the different agencies that are in there when we are 
working with fires, if the Bureau of Indian Affairs was kind of 
the lead of coordinating and bringing together--and this isn't 
to be overly critical of them but there needs to be a 
coordination force in terms of pulling together those trust 
responsibilities throughout government and maybe beyond your 
department.
    They need an advocate. Somebody needs to be saying to the 
Federal Government throughout, this is a responsibility, you 
need to get over here and help with this.
    Secretary Jewell. I am sorry to interrupt. They do and I 
was very encouraged. The representative from the BIA is 
assigned to a particular part of the country to manage all 
fires. The representative from the U.S. Forest Service is the 
same. They don't treat tribal lands any different than any 
other lands. They treat all lands in a way that says what is 
the fire risk, not who is responsible or who is the agency 
manager.
    I felt really good in speaking with the BIA representative 
there that we are not treating Indian lands any differently 
than other lands, that we are all working closely and that also 
includes State and local fire responders. It is the most 
coordinated thing I have seen in government yet.
    Senator Udall. I see I have run out of time.
    The Chairwoman. Do you have a follow-up to that?
    Senator Udall. I have an additional question.
    The Chairwoman. Go ahead.
    Senator Udall. I didn't know whether you were doing a 
second round. I don't want to deprive my colleague from North 
Dakota.
    The Chairwoman. Go right ahead.
    Senator Udall. First of all, you started off on the right 
foot in my opinion because you met with a small group of tribal 
leaders. I know one of them was Richard Luarkie, the Governor 
of Laguna Pueblo. He very much appreciated being able to meet 
in the Secretary's office in a larger tribal setting 
roundtable, to have a discussion with you and have a one-on-one 
with him and hearing his tribal concerns. Thank you for doing 
that.
    I wanted to speak with you a bit more. Issues have been 
raised on sequestration but there are some big picture issues 
on sequestration that I think we are missing because I am 
tremendously frustrated in our efforts to protect our Nation's 
most vulnerable communities.
    When we put the sequester in place, we said we were 
exempting the most vulnerable. We didn't really push on 
Medicare and these other areas. Somehow, we forgot about the 
tribes. I don't know how we are ever going to get out of the 
sequester. We obviously have it in the current budget and are 
living with it. Many of us want to get out of it immediately 
but we cannot find a way, a bipartisan way working with our 
colleagues.
    It seems to me whenever this is renegotiated, if we are 
coming up with the next budget cycle in October, we need to 
remember that our tribal communities are the most vulnerable 
and they should be exempted from something like this. That is 
where I am coming from on this.
    Could you just give your big picture, your overall 
impressions of the sequester and what it is doing in Indian 
Country? I see it in New Mexico and it is absolutely 
devastating to schools, to Head Start, on and on the list goes.
    Secretary Jewell. You have it right, it is devastating. It 
disproportionately impacts this budget because it is a more 
people intensive budget. When you apply the sequester, it means 
you are reducing people and it is also reducing payments to 
individuals. I think 2,400 individuals will have their payments 
stopped as a result of the sequester.
    It impacts Indian education. Nobody on this Committee, from 
the hearing so far, would argue that it is an under-resourced 
challenge part of our responsibility that is very difficult to 
fulfill and yet that got the same degree of cuts that other 
areas did as well. There are really severe consequences.
    Larry, do you want to add any specific detail to that?
    Mr. Roberts. I think there are a couple concrete examples 
in terms of how sequestration is affecting Indian Country.
    One of the long term examples is that forest management 
plans, which we are working on with the goal mandated to have 
those in place by 2015, obviously we were on track to meet 
those. Sequestration has impacted those deadlines. The impact 
of missing that deadline is that forest revenue isn't realized 
and current positions are going to be lost, the revenues 
generated by those forestry programs.
    A more short term example that the staff has shared with us 
is dam inspections are at risk because we have fewer resources 
to conduct those inspections as we are making these cutbacks.
    Our sense is that the realty functions the Bureau performs, 
title functions, those are going to be impacted by 
sequestration. That is going to impact our fee to trust 
processing and those areas that are really important to the 
Department.
    Senator Udall. Thank you, Secretary Jewell.
    Thank you, Larry.
    I will submit a few questions for the record on Salazar v. 
Ramah which you have a different approach on how to deal with 
that Supreme Court case, also energy development in Indian 
Country, specifically renewables and the long term plan in 
backlogs in terms of BIA.
    Let me just give a shout out to my friend, Congressman Bill 
Delahunt in the back, a great advocate for tribes, Madam Chair.
    With that, thank you.
    The Chairwoman. Thank you.
    Secretary Jewell and Assistant Secretary Roberts, thank you 
for being here today. We appreciate your statements and views 
on these issues. As you can see, we had a very good turnout of 
members today, partly because they have respect for the views 
they wanted to hear from you and partly because they are 
looking for that partnership of working with the Department of 
the Interior on many issues, whether it is backlog on 
irrigation, settlements, firefighting coordination or just a 
stronger government relationship.
    I hope as Interior Secretary, you will embrace this area of 
responsibility of working with this Committee and these various 
entities and help us in trying to solve these problems and to 
live up to that pledge that you made to leave this a more 
improved system. We appreciate it very much.
    We are adjourned.
    [Whereupon, at 4:00 p.m., the Committee was adjourned.]
                            A P P E N D I X

   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                           Hon. Sally Jewell
Trust Responsibility Throughout Federal Agencies
    Background: The United States has legal obligations to Indian 
tribes that are grounded in the United States Constitution, treaties, 
federal statutes, and Supreme Court decisions. Much of the federal 
Indian policy revolves around this special relationship, which is 
expressed in term of legal duties, moral obligations, and expectancies 
that have arisen from treaties, federal statutes, federal court 
decisions, and historical dealings between Indian tribes and the 
Federal Government. This relationship is described as a trust 
relationship between the trustee and the beneficiary. The Congress has 
placed primary responsibility for Indian matters in the Department of 
the Interior, primarily within Indian Affairs.
    Although every agency within the Federal Government that has 
dealings with tribes must uphold the Federal Government's trust 
responsibility to tribes, the Department of the Interior is the agency 
charged with primary responsibility for Indian matters. Many tribal 
programs overlap among several agencies so the Department must work 
with Department of Education on education policy, Housing and Urban 
Development on housing, and the Department of Justice on public safety.

    Question 1. What leadership role do you think you can play as 
Secretary to bring all the agencies who deal with tribes together to 
better understand and implement the trust responsibility across all 
federal agencies?
    Answer. The leadership role I can play as Secretary of the 
Interior, and as a colleague with other Cabinet members, is to continue 
this Administration's work on the Strengthening Tribal Nations 
initiative. This initiative takes a multi-faceted approach to advance 
Nation-to-Nation relationships, protect Indian communities, advance 
Indian education, and continue reforms in trust-land management, with 
the ultimate goal of greater tribal self-determination and self-
governance. This initiative has been highlighted over the past four 
years as President Obama and his Administration have engaged in direct 
dialogue with tribal nations. Held in November 2009, and December in 
2010, 2011, and 2012, at the Department's Yates Auditorium, over 300 
tribal leaders have attended this yearly White House Tribal Nations 
Conference. Through my role as the Chair of the White House Council on 
Native American Affairs established by Executive Order 13647 on June 
26, 2013, I will continue to engage in direct dialogue across all 
federal agencies with the goal of improving coordination of federal 
programs and the use of resources available to tribal communities. I 
convened the first meeting of this Council on July 29, 2013 and we are 
working diligently to meet the challenges in Indian Country.
Indian Education--Management Challenges
    Background: The Bureau of Indian Education system operates 183 
schools and dormitories located on 64 reservations in 23 states. 
Approximately 7 percent of all Indian students attend Bureau of Indian 
Education schools. Recent General Accounting Office testimony stated 
that the high school graduation rate for Bureau students is 52 percent 
compared to 76 percent for public school students. Although the mission 
of the Bureau of Indian Education is to provide quality education 
opportunities to Indian students, poor student outcomes and outdated 
school facilities raise questions about whether that mission is being 
achieved. The General Accounting Office testified at a recent House 
hearing that ``Management Challenges Continue to Hinder Efforts to 
Improve Indian Education''. The report uses the word ``Continue'' 
because this is a subject that has been studied for some time with 
seemingly no significant improvement. For example, a 1977 GAO report is 
entitled ``Concerted Effort Needed to Improve Indian Education'' and a 
1980 GAO report asks ``Should the Bureau of Indian Affairs Continue to 
Provide Education Services to Indian Children?''

    Question 2. Serious issues have plagued the Bureau of Indian 
Education for decades now, and we have seen little improvement in how 
education services are being provided. What can you do as a new 
Secretary at Interior to take a hard look at this program and make sure 
quality education is provided to Indian students?
    Answer. The first action I am taking is to recruit a permanent 
Director for the BIE. The position has been vacant since last July and 
a new leader is needed to set the course for the BIE schools and 
programs.
    The second action is to promote high quality education for the BIE 
schools. The BIE has a number of programs under the Elementary and 
Secondary Education Act of 1965 (ESEA) and it must comply with the 
requirements of the U.S. Department of Education. In that respect, I 
will work with Secretary of Education, Arne Duncan, to ensure that BIE 
has the necessary tools to meet the demands of a school district and to 
provide the necessary support to the BIE in its commitment to improving 
the learning environment for its students. The reauthorization of the 
ESEA will assist in this effort.
    Additionally, I will work with Secretary Duncan to ensure effective 
implementation of the Memorandum of Understanding between the 
Department of Education and the Department of the Interior and will 
work to support better collaboration between our Departments to improve 
Indian education. This MOU is an important component of the Executive 
Order 13592--Improving American Indian and Alaska Native Educational 
Opportunities and Strengthening Tribal Colleges and Universities of 
which I am a co-chair with Secretary Duncan. Both Departments are 
working to strengthen the Tribally Controlled Colleges and Universities 
and to support the President's college completion goals.
    To highlight our commitment, Secretary Duncan and I convened an 
American Indian Education Study Group (Study Group) in September of 
this year. The Study Group will visit schools and classrooms, Tribal 
Governments, and Indian Affairs employees to gather information, listen 
to their concerns and, most importantly, try to find ways to improve 
American Indian education. Members of the Study Group are from the 
Departments of Education and Defense, as well as Brown University. The 
Assistant Secretary--Indian Affairs, Kevin Washburn, oversee the Study 
Group.
    Finally, I will work closely with Assistant Secretary Washburn to 
ensure that we are making progress on the education of Indian children. 
In addition, the FY 2014 President's Budget requests $2 million for a 
formal, independent evaluation of the BIE focusing on both structural 
issues of the system and the outcomes to be achieved.

    Question 2a. In your testimony you stated that 63 of the Bureau of 
Indian Affairs schools are in poor condition. Can you provide the 
Committee with a list of those schools?
    Answer. A list of schools identified as in poor condition is 
included as Attachment 1. This recent list, from September 2013, 
includes 43 schools.
Contract Support Costs
    Background: The Indian Self-Determination and Education Assistance 
Act authorizes tribes to enter into contracts with the Department of 
the Interior and Indian Health Service to operate federal programs at 
the tribal level. The Act also provides for the tribe receiving 
contract support costs which are the essential for the proper 
administration of federal contracts. Federal budgets have rarely 
provided enough resources to fully compensate tribes for their contract 
support costs. The Supreme Court ruled last year in Ramah v. Salazar 
that the Government must pay each tribe's contract support costs in 
full. However, in the Fiscal Year 2014 budget, the Department of the 
Interior did not request enough funding to cover all contract support 
costs. Further, Interior's budget request seeks to cap each tribe's 
contract support costs by statute to limit the Department's liability. 
Tribal self-determination and self-governance has been one of the most 
successful policies in the history of the nation-to-nation relationship 
between the United States and Tribes. However, tribes have constantly 
been short-changed with respect to the contract support costs. Tribes 
recently won a big legal victory in the recent Ramah (RAY-MUH) 
decision.

    Question 3. Secretary Jewell, I know that you were not involved in 
the 2014 budget, but can you tell the Committee why the Department is 
proposing an interim solution to cap contract support costs for each 
tribe, instead of taking the time to consult with tribes on all of the 
options mentioned in the Supreme Court's decision in Ramah?
    Answer. The 2014 budget proposes an interim solution in the way in 
which funds are budgeted for contract-support costs, which are 
important to the furtherance of self-governance and Indian self-
determination. In light of the Supreme Court's decision in Salazar v. 
Ramah Navajo Chapter, the Administration is proposing that Congress 
appropriate contract-support cost funding to Tribes on a contract-by-
contract basis. On June 14, 2013, Interior and HHS submitted initial 
contract-by-contract funding tables for incorporation into the 
Appropriations Act to clarify to tribes their funding level for FY 
2014. This change is an interim step towards a more comprehensive 
solution, through consultation with Tribes.
Contract Support Costs
    Background: The Indian Self-Determination and Education Assistance 
Act authorizes tribes to enter into contracts with the Department of 
the Interior and Indian Health Service to operate federal programs at 
the tribal level. The Act also provides for the tribe receiving 
contract support costs which are the essential for the proper 
administration of federal contracts. Federal budgets have rarely 
provided enough resources to fully compensate tribes for their contract 
support costs. The Supreme Court ruled last year in Ramah v. Salazar 
that the Government must pay each tribe's contract support costs in 
full. However, in the Fiscal Year 2014 budget, the Department of the 
Interior did not request enough funding to cover all contract support 
costs. Further, Interior's budget request seeks to cap each tribe's 
contract support costs by statute to limit the Department's liability. 
Both Deputy Secretary David Hayes and Assistant Secretary Kevin 
Washburn have recently testified that the Department was simply 
proposing one of the options that the Supreme Court laid out in its 
Ramah (RAY-MUH) decision. However, the proposal will limit contract 
support costs to every tribe that contracts with the Department, and 
deny tribes the ability to recover full costs even through the courts.

    Question 4. Secretary Jewell, the proposed fiscal year 2014 budget 
estimates only an $11 million shortfall for contract support costs. 
Wouldn't the better policy be to fully fund contract support costs and 
save tribes from costly litigation, especially when they have already 
pursued and won those claims all the way through the Supreme Court?
    Answer. Given the financial climate, tough choices must be made 
with respect to Departmental programs. One such decision involves the 
need to balance funding for contract support costs with funding for 
direct programming and other tribal priorities within constrained 
resources. This interim solution is designed to address litigation 
exposure from Indian tribes for contract support costs, and is 
consistent with one of the remedies identified in the Supreme Court's 
Ramah decision. We believe that this interim solution leads to a 
mutually beneficial long-term solution by working with Congress and 
consulting with Indian tribes.
Energy Development
    Background: Tribal lands contain vast amounts of both conventional 
and renewable energy resources. Development of these resources can 
provide tribes with much needed revenues and provide tribal communities 
with greater job opportunities. The Department of the Interior's energy 
development assistance to tribes is mostly provided through grants and 
lease processing, and through technical assistance and training.
    The Department of the Interior, through the Bureau of Indian 
Affairs and Bureau of Land Management, has the lead role in approving 
lease and permit documents associated with energy development on tribal 
lands. The Office of Indian Energy and Economic Development also 
assists tribes and individual Indians with lease negotiations, and 
provides energy resource assessments and technical assistance.
    Tribes have often testified in the past about the delays in 
processing leases and applications for permits to drill in Indian 
Country. Tribes would like to see the Department focus on streamlining 
the lease and permitting process and provide technical assistance and 
grants for energy development with a focus on renewal energy projects.
    In your testimony you state that the Department estimates that 
energy and mineral development on Indian lands in 2012 supported over 
$16 billion of economic activity and nearly 120,000 jobs related to 
trust resources.

    Question 5. How many of those 120,000 jobs went to tribal members 
and how much of the $16 billion went to tribal governments or tribal 
entities?
    Answer. Our estimates of economic activity and employment were 
based on a standard economic model that took as inputs the revenues 
received from energy and mining production activities on Indian lands. 
We do not have the information to estimate how much of this economic 
activity went to tribal governments or tribal entities, or how much 
employment included tribal members.
Renewable Energy Development
    Background: Tribal lands contain vast amounts of both conventional 
and renewable energy resources. Development of these resources can 
provide tribes with much needed revenues and provide tribal communities 
with greater job opportunities. The Department of the Interior's energy 
development assistance to tribes is mostly provided through grants and 
lease processing, and through technical assistance and training.
    The Department of the Interior, through the Bureau of Indian 
Affairs and Bureau of Land Management, has the lead role in approving 
lease and permit documents associated with energy development on tribal 
lands. The Office of Indian Energy and Economic Development also 
assists tribes and individual Indians with lease negotiations, and 
provides energy resource assessments and technical assistance.
    Tribes have often testified in the past about the delays in 
processing leases and applications for permits to drill in Indian 
Country. Tribes would like to see the Department focus on streamlining 
the lease and permitting process and provide technical assistance and 
grants for energy development with a focus on renewal energy projects.
    In your testimony you state that more than 50 renewable energy 
projects are ongoing on an estimated 35 reservations, but the 
Department has identified 267 reservations with renewable energy 
potential.

    Question 6. What tools does the Department need, either 
administrative or legislative, to increase its capability to expand 
renewable energy projects to some of these 267 reservations?
    Answer. Developing renewable energy in Indian Country has four 
principal components: assessing the resource(s); determining how to 
transmit the energy to market; securing a Purchase Power Agreement and 
financing the project.
    Under the Indian Tribal Energy Development and Self-Determination 
Act of 2005, the Office of Indian Energy and Economic Development 
(OIEED) administers a tribal grant program to help assess energy 
resource potential and market feasibility. Within available resources, 
the office assists tribes with increased understanding of the renewable 
energy potential of their resources so that they can craft viable 
development strategies.
    The IEED also administers the Tribal Energy Development Capacity 
grant program as also authorized by the Act to help tribes establish 
the managerial and technical expertise necessary to assume greater 
authority over their energy resources. OIEED funds Tribal applications 
within the resources available for grants.
    As it relates to the transmission of energy, renewable or 
traditional, Congress could assist by keeping Indian Country in mind as 
Congress helps shape the location and design of the Nation's and Indian 
Country's future transmission infrastructure with laws and incentives. 
In addition, to the extent tribes could help facilitate the existence 
of energy transmission lines by granting rights-of-way under a tribal 
energy resource agreement (TERA), making the TERA process simpler (as 
recommended below) would also help address the energy transmission 
challenge.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John Barrasso to 
                           Hon. Sally Jewell
Oil and Gas Development on Indian Lands
    On May 3, 2013, the Bureau of Land Management announced that it is 
postponing all oil and gas lease sales in California for the rest of 
Fiscal Year 2013. In the BLM press release (New Release No. CC-13-50), 
the BLM states that this is due to budget constraints resulting from 
sequestration and an emphasis on the higher priorities for conducting 
inspection and enforcement on existing leases and processing new 
Applications for Permit to Drill.

    Question 7. Does this suspension in California include any proposed 
leases to drill on Indian lands?
    Answer. No, none of the four parcels in the postponed lease sale in 
California were on Indian lands. Further, the BLM does not have the 
authority to issue oil and gas leases for Indian lands. The Bureau of 
Indian Affairs is vested with authority to issue oil and gas leases on 
Indian lands on behalf of Federally recognized Tribes and individual 
Indian allottees.

    Question 8. Does the BLM plan to suspend auctioning of leases on 
Indian lands in other parts of the country? If so, which other areas 
will be subject to suspension of leasing?
    Answer. As stated above, the BLM does not have the authority to 
issue oil and gas leases on Indian lands. The Bureau of Indian Affairs 
is vested with the authority to issue oil and gas leases on Indian 
lands on behalf of Federally recognized Tribes and Indian allottees.

    During our outreach for the Indian bill that I introduced in the 
112th Congress, S.1684, the Indian Tribal Energy Development and Self-
Determination Act Amendments of 2012, tribes confirmed that the high 
application for permit to drill fees on Indian lands are impacting 
development of Indian trust minerals. According to the Bureau of Land 
Management Fiscal Year 2014 Budget Justification, the President's 
Fiscal Year 2014 budget proposal would impose $60 million in new oil 
and gas inspection fees each year.

    Question 9. Will these proposed new oil and gas inspection fees to 
apply to Indian lands?
    Answer. The proposed new oil and gas inspection fees would expand 
and strengthen BLM's oil and gas inspections and oversight capability 
and improve production accountability, safety, and environmental 
protection of oil and gas operations, and would apply to BLM inspection 
activities on Federal and Indian Trust oil and gas mineral estate.

    Question 10. If your answer is ``yes,'' what analysis has the 
Department conducted on the economic impact that these fees will have 
on oil and gas development on Indian lands?
    Answer. Increased funding is aimed at, among other things, 
correcting deficiencies identified by the Government Accountability 
Office in a February 2011 report, which found that the BLM needs a 
comprehensive strategy to better manage potential oil and gas well 
liabilities on Federal and Indian oil and gas leases, including 
enhancing the agency's ability to verify production from these leases 
to assure accurate revenue collection for the American public, tribes, 
and individual Indians. While there has not been a specific analysis of 
the economic impact that these proposed fees will have on oil and gas 
development on Indian lands, the inspection fees would help expand and 
strengthen BLM's oil and gas inspection and oversight capability and 
improve production accountability and environmental protection of oil 
and gas operations on Indian lands.

    In September 2012, the Office of Inspector General within the 
Department of the Interior issued a report titled Oil and Gas Leasing 
in Indian Country: An Opportunity for Economic Development, Report No. 
CR-EV-BIA-0001-2011. This report identifies several problem areas, 
including the lack of a coordinated strategy or organizational 
structure to manage Bureau of Indian Affairs' oil and gas activities; 
extra layers of governmental review; perceived risk of doing business 
with tribal governments; high well permit fees assessed by the Bureau 
of Land Management; and complexities associated with self-
determination.
    These are just some of the problems identified by the Office of 
Inspector General report that create disincentives for oil and gas 
development on Indian reservations. One recommendation from the Office 
of Inspector General is that the Assistant Secretary for Indian Affairs 
should work with the Department of the Interior and Congress to improve 
the Tribal Energy Resource Agreement statutes and regulations to enable 
Indian tribes to exercise self-determination over tribal oil and gas 
operations. As noted above, last Congress, I introduced S. 1684, the 
Indian Tribal Energy Development and Self-Determination Act Amendments 
of 2012, which was designed to do exactly what the Inspector General is 
recommending.

    Question 11. Will you work with the Senate Committee on Indian 
Affairs and the Assistant Secretary for Indian Affairs to implement 
that OIG recommendation?
    Answer. Yes, we will work with the Committee to implement 
improvements to the Tribal Energy Resource Agreement related statutes 
and regulations to enable Indian tribes to exercise self-determination 
over tribal oil and gas operations. The Department is committed to 
improving conditions in Indian Country, and to allow Indian nations to 
develop their energy resources in the efficient, responsible manner 
they choose.
Hydraulic Fracturing
    On May 24, 2013, the BLM published in the Federal Register its 
proposed rule on ``hydraulic fracturing on Federal and Indian lands.'' 
As the executive summary points out, ``this revised proposed rule would 
apply to Indian lands so that these lands and communities receive the 
same level of protection provided on public lands.''
    The summary goes on to state that, while the BLM ``fully embraces'' 
the laws, rules and policies that promote tribal self-determination and 
control of resources, the ``Indian Mineral Leasing Act (IMLA) . . . 
subjects all oil and gas operations on trust or restricted Indian lands 
to the Secretary's regulations and does not authorize the Secretary to 
allow tribes to opt out of these regulations.'' (Emphasis added.)
    Furthermore, part II of the preamble (``Background'') of the 
proposed rule states that the Department of the Interior ``has 
consistently interpreted'' the IMLA ``as allowing uniform regulations 
governing mineral resource development on Indian lands.'' (Emphasis 
added.)
    Although some of the Department's mineral development regulations 
do apply to both public and Indian lands, the Department has also 
adopted regulations regarding the development of Indian lands under the 
IMLA, the Indian Mineral Development Act, and Energy Policy Act of 2005 
that are separate, distinct, and different from the regulations that 
the Department has adopted for public lands pursuant to the Mineral 
Leasing Act.

    Question 12. Is the Department stating or suggesting in the revised 
proposed rule that current law requires the Department to address 
hydraulic fracturing on Indian lands in the same set of regulations as 
public or other federal lands?
    Answer. In the proposed rule, the Department is not stating that 
current law requires the Department to address hydraulic fracturing on 
Indian lands in the same set of regulations as federal lands. However, 
as a matter of policy the Department has proposed uniform regulations.

    Question 13. Is the Department stating or suggesting in the revised 
proposed rule that current law requires the Department to impose the 
same hydraulic fracturing rules and regulations on Indian lands that it 
imposes on public or other federal lands?
    Answer. In fulfilling the Department's Indian trust 
responsibilities, the Department follows the Indian Mineral Leasing Act 
of 1938, which requires that all oil and gas operations on trust or 
restricted Indian lands be subject to the rules and regulations 
promulgated by the Secretary. The Department also fully embraces the 
statutes, Executive Orders, and other statements of governmental or 
departmental policy in favor of promoting tribal self-determination and 
control of resources, which is why the revised proposed rule includes a 
variance process. The process would enable the BLM to accept an 
operator's compliance with a tribe's hydraulic fracturing standards or 
procedures provided the tribe's standards or procedures meets or 
exceeds the effectiveness proposed by this rule.

    Question 14. Has the Department considered whether it is in the 
best interest of Indian tribes or their members to treat their trust 
lands exactly the same as public lands under the revised proposed rule?
    Answer. This rule applies to Indian lands so that these lands and 
communities receive the same level of protection provided on public 
lands. The BLM fully embraces the statutes, Executive Orders, and other 
statements of governmental or departmental policy in favor of promoting 
tribal self-determination and control of resources. The Indian Mineral 
Leasing Act, however, subjects all oil and gas operations on trust or 
restricted Indian lands to the Secretary's regulations and does not 
authorize the Secretary to allow tribes to opt out of these 
regulations. The revised proposed rule, however, includes a variance 
process that would enable the BLM to accept an operator's compliance 
with a tribe's hydraulic fracturing standards provided the tribe's 
standards or procedures meets or exceeds the effectiveness proposed by 
this rule.

    Question 15. Is the treatment of Indian lands the same as public 
lands under the revised proposed rule consistent with the way in which 
Indian lands are treated under the Federal Land Policy and Management 
Act of 1976 (43 U.S.C. 1701 et seq.)?
    Answer. The Federal Government holds approximately 56 million acres 
of Indian Minerals in trust for the benefit of tribes and individual 
Indians. As trustee of those lands, the Secretary must ensure that the 
resources are protected, and that they are used for the benefit of the 
tribes and individual Indians. The trust doctrine establishes the 
responsibility of the Federal Government to exercise a protective 
supervision over transactions and activities related to tribal lands in 
the tribes' interest. The Federal Government is expected to exercise 
similar diligence in conservation and protection of health, safety, and 
the environment on lands held in trust as on lands of the Federal 
Government.

    Question 16. Does the Department lack the authority to adopt 
regulations on hydraulic fracturing that would in turn apply, adopt, 
recognize or otherwise give effect to tribal laws or regulations 
applicable to hydraulic fracturing activities on the trust or 
restricted lands of the Indian tribe in lieu of the requirements set 
forth in the revised proposed rule? Are there any circumstances or 
conditions under which the Department would be authorized to adopt 
regulations that would do that? If the answer to the latter question is 
``yes,'' please explain in detail the circumstances or conditions, 
under which the Department could apply, adopt, recognize or otherwise 
give effect to tribal laws to the trust or restricted lands of the 
tribe.
    Answer. The BLM fully embraces the statutes, Executive Orders, and 
other statements of governmental or departmental policy in favor of 
promoting tribal self-determination and control of resources. The 
Federal Government must fulfill its responsibilities as established by 
the trust doctrine to oversee transactions and activities related to 
tribal lands in the tribes' interest. This rule will not weaken tribal 
regulations currently followed by operators working on Indian lands. 
The revised proposed rule includes a variance process that would enable 
the BLM to accept an operator's compliance with a tribe's hydraulic 
fracturing standards or procedures, provided the tribe's standards or 
procedures meets or exceeds the effectiveness proposed by this rule.

    Question 17. Please explain in detail how you intend the tribal 
variance provision in the new hydraulic fracturing proposal to be 
implemented, including any process or procedures that will be followed 
for obtaining a variance.
    Answer. The revised proposed rule adds a provision allowing the BLM 
to approve a variance that would apply to all lands within the 
boundaries of a tribe or described as field-wide or basin-wide, that is 
commensurate with the tribal regulatory scheme. The BLM must determine 
that the variance would meet or exceed the effectiveness of the revised 
proposed rule. Tribes would be invited to work with the BLM to craft 
variances that would allow technologies, processes, or standards 
required or allowed by the tribe to be accepted as compliance with the 
rule. Such variances would allow the BLM and the tribes to improve 
efficiency, increase flexibility, reduce regulatory duplication, and 
reduce costs for operators and for the BLM and the tribe.
Cobell Buy-Back Program
    According to the Department's ``Initial Implementation Plan'' for 
the $1.9 billion land buy-back program under the Cobell settlement, 90 
percent of the purchasable fractionated interests are located on 40 
reservations. According to the Initial Implementation Plan, the 
Department intends to focus buy-back efforts, at least initially, on 
these 40 reservations in descending order of fractionation. However, to 
determine the best sequence of implementation, the Plan also states 
that the Department will consider other factors such as location, 
status of title records, availability of valuation-related information, 
and tribal priorities and involvement.

    Question 18. Will the Department be able to prioritize and 
implement the program for direct service tribes equally as well as it 
will for self-governance and contracting tribes? Please explain.
    Answer. The Program will purchase fractional interests at locations 
where tribes have self-governance compacts and contracts. The 
Department is not prioritizing or implementing the Program based on the 
manner in which resources or services are provided to a tribe. In 
addition, because the Program will utilize cooperative agreements to 
obtain tribal involvement in the implementation of the Program (rather 
than through Self-Determination contracts or Self-Governance compacts), 
there is less likelihood of differences as the Program is implemented.
    According to the Initial Implementation Plan, the buy-back program 
will also first target those fractionated interests that are most 
amenable to cost-efficient, mass valuation techniques.

    Question 19. In what instances would land interests be unsuitable 
for mass valuation techniques?
    Answer. Mass appraisals are most appropriate when all of the 
parcels appraised are of consistent/similar in nature, which would 
include (1) all parcels are vacant or have similar improvements, (2) 
all parcels are located within a relatively homogeneous geographical 
area, (3) all parcels have the same , or a similar, highest and best 
use, (4) the most relevant method of valuation is the same for all 
parcels, and (5) the same array of market sale data will be relied on 
in the valuation of each parcel.
    Therefore, mass appraisals are not appropriate when the parcels are 
not consistent/similar in nature (not homogeneous), parcels are not 
vacant or do not have similar improvements, parcels are not located in 
a homogeneous geographical area, the highest and best of each parcel 
vastly differ, the method of valuation is not same for all parcels, and 
multiple sets of market sale data will be relied on in the valuation of 
each parcel requiring separate analysis thus separate appraisals.

    Question 20. Will the Department be able to implement the buy-back 
program in a fair, effective, and efficient manner in those instances 
when mass appraisals cannot be utilized? Please explain.
    Answer. The Cobell Settlement, and the Claims Resolution Act of 
2010, requires the Department to offer fair market value to owners of 
fractionated interests. The Department will use mass appraisal and 
other methods as appropriate, to establish the fair market value. The 
Program will use mass appraisal techniques to appraise homogeneous, 
non-complex, vacant lands that have comparable land sales available. 
The Program will use methods other than mass appraisals for commercial 
or other lands within urbanized zones where greater variation may 
exist. The presence of potentially valuable mineral commodities or 
timber may also necessitate the use of additional methods or analyses.
    All appraisal methods used by the Department will conform to the 
Uniform Standards of Professional Appraisal Practice (USPAP). Moreover, 
in order to ensure that the valuation process complies with appraisal 
industry practices and USPAP, the Department is working with the 
Appraisal Foundation, a non-profit organization, to obtain an 
independent review of the Department's methods.
    Mass appraisals methods are expected to be the most efficient way 
to value fractionated tracts. Consistent with the Program's Initial 
Implementation Plan, a demonstrated showing of interested sellers may 
be appropriate before appraisal work proceeds in order to ensure that 
administrative expenditures are well founded (which showing may become 
especially important in those instances where tracts are not amendable 
to mass appraisal techniques).

    Question 21. How will the Department proceed when certain lands are 
high tribal priorities but are not amenable to mass appraisal 
techniques?
    Answer. Tribal acquisition priorities are vitally important to 
achieving a foundational goal of the Program, which is to strengthen 
tribal sovereignty and promote consolidated trust land bases for 
conservation, stewardship, and beneficial use by sovereign tribal 
nations. The Department cannot guarantee that it will be able to 
purchase all tribal priorities given its financial and operational 
constraints (e.g., inability to purchase fee lands); however, it will 
actively consult with tribes to identify tribal acquisition priorities 
and accommodate those priorities to the fullest extent possible.

    Question 22. Please describe how the Department will engage the 
tribal governments to assist in the buy-back program. Will the tribes 
have any discretion in selecting land for re-purchasing?
    Answer. Tribal involvement will be critical to the success of the 
Buy-Back Program, especially in the area of outreach. The Program will 
consult with tribes to ascertain tribal priority properties and will 
incorporate those into acquisition plans to the maximum extent 
possible.
    The Buy-Back Program will enter into Cooperative Agreements with 
tribes to conduct land consolidation activities, especially in the area 
of outreach. The Program will not use P.L. 93-638 contracts and self-
governance compacts to implement Buy-Back activities because the 
provisions of the Self-Determination Act specifically do not apply to 
such agreements.
    When the Department targets a specific reservation, the Department 
will consult with the tribe to ascertain whether the tribe has the 
desire and the capacity to conduct land consolidation activities within 
its reservation. Additionally, as the Department will be active only at 
a limited number of reservations at any one time, tribes not initially 
targeted by the Buy-Back Program may be able to utilize cooperative 
agreements to begin activities within their respective reservations. 
Utilizing a cooperative agreement that includes land research work 
might, for example, allow for Buy-Back Program valuation activities to 
be completed before the time initially scheduled by the Department.
    The Program is finalizing a cooperative agreement template and 
scope of work. It is also finalizing a list of answers to the most 
frequently asked questions regarding cooperative agreements. Once these 
documents are completed, the Department will make them available to 
tribes and post them on the Program's website.

    Question 23. Please describe how the Department will address the 
problem of improvements located on fractionated land. Will the 
Department purchase improvements along with the land?
    Answer. Improvements located on fractionated land are not trust 
property pursuant to the Indian Land Consolidation Act, and thus cannot 
be purchased through the Buy-Back program.
Wild and Feral Horses
    The BLM is struggling to gather and adopt out wild and feral 
horses. The agency is spending $75 million dollars a year but is still 
failing to protect our western rangelands from overgrazing. The 
National Tribal Horse Coalition has told me that the situation in 
Indian Country is even more severe-wild elk and deer herds have been 
lost, native grasslands destroyed, and riparian ecosystems ruined.''

    Question 24. What will you do to prevent the further destruction of 
tribal resources caused by wild and feral horse populations? Please 
give details.''
    Answer. The BLM's Wild Horse and Burro program protects, manages, 
and controls wild horses and burros on public lands managed by the BLM 
and Forest Service under the Wild Free-Roaming Horses and Burros Act of 
1971. The BLM defers to the Bureau of Indian Affairs on issues of trust 
responsibilities for the management of tribal lands. The Wild Free-
Roaming Horses and Burros Act, and the BLM's program, do not provide 
for the management of feral horses. In the few areas where tribal 
horses exist across a fence from adjacent public land wild horse Herd 
Management Areas, efforts are made to maintain fences. In these 
situations, animals on tribal lands are considered tribal horses, and 
those on public lands are considered wild horses to be protected and 
managed by the BLM. If BLM-managed wild horses or burros stray onto 
tribal lands and a request is made for their removal, the BLM complies 
within its capability to do so.
    The BLM takes seriously its commitment to ensure the health and 
productivity of public rangelands in coordination with tribal nations. 
The BLM's Cultural and Tribal Consultation program specifically 
prioritizes enhancing tribal engagement in agency decisionmaking 
processes through both formal and informal Government-to-Government 
consultation. This coordination with tribal stakeholders remains an 
important component in the BLM's landscape-level approach to public 
land management concerns like rangeland health.
    In keeping with its multiple-use mission, the goal of the BLM in 
managing public lands is to provide healthy rangelands that support 
healthy herds, permitted livestock, and native wildlife. The 
conservation of cultural and tribal resources located on public lands 
is another of the BLM's multiple-use responsibilities. To promote the 
sustained health of public rangelands, the BLM uses professional range 
conservation staff and technicians to carefully monitor range 
conditions and to make determinations, as directed by the Wild Free-
Roaming Horses and Burros Act, to manage herd populations for 
Appropriate Management Levels (AML). Wild horse and burro management 
differs from management of other wildlife or livestock because Federal 
protections and a lack of natural predators allow herd populations to 
double every four years. The BLM's Wild Horse and Burro program 
utilizes a variety of strategies to maintain herd populations 
consistent with the land's capacity to support them, including 
population growth suppression treatments, gathers, holding facilities, 
adoptions, and eco-sanctuaries.
Distance Learning Project
    On May 9, 2013, the Albuquerque news affiliate KRQE reported that a 
distance learning project developed by the Department of Interior--the 
Enhanced Learning and Knowledge Network or ``ELKNet''--wasted $10 
million of taxpayer money, reaching only a handful of BIE schools 
before the program ended after only 21 months.

    Question 25. Please explain (1) the justification for this program 
and (2) why it ended so abruptly.
    Answer. The purpose of the ELKNet was to provide training and 
information to BIE teachers and instructors through distance learning. 
Various methods of delivery to the BIE schools were planned and some 
were implemented. However, faced with the intent to reduce 
inefficiencies and waste in our budget, the Department of the Interior 
evaluated usage and maintenance costs of the ELKNet system and made the 
decision to discontinue its use. Discontinuing the satellite time and 
maintenance contracts generates a savings of $500,000 annually.
    The infrastructure remains in place at the schools and juvenile 
detention centers where it was previously used, and the satellite 
capabilities can be reinstated should additional federal dollars become 
available to make the operation a worthwhile venture once again. The 
National Indian Program Training Center (NIPTC) studio continues to be 
used for the development of training videos for BIE and BIA as well as 
other DOI Bureaus.
Academic Achievement
    The low academic outcome at BIE schools has been an ongoing 
concern. According to the BIE 2010-2011 Annual Report Card, the BIE 
graduation rate stands at 59 percent, and only one-third of students 
perform at proficient levels in language arts and mathematics. On 
February 27, 2013, the Government Accountability Office testified 
before the House Appropriations Committee, Subcommittee on Interior, 
Environment, and Related Agencies that management and communication 
issues between Indian Affairs offices may have a negative effect on 
student achievement at BIE schools. In your testimony before the 
Committee on Indian Affairs on May 15, 2013, you characterized the 
state of Indian education as ``an embarrassment.''

    Question 26. How do you plan to improve academic achievement at BIE 
schools? Please be specific.
    Answer. The comments from the GAO on communications issues between 
Indian Affairs offices refers to the provision of administrative 
support services by Indian Affairs to the BIE and its schools. The 
provision of contracting, financial, budgeting, facilities, safety, and 
property management services to BIE schools by Indian Affairs offices 
is difficult due to the geographic isolation of many BIE schools. 
Without proper and efficient delivery of such support services to the 
BIE schools, academic progress suffers. Efforts are under way to remedy 
the situation by improving communications and deliverables by the 
service entity to BIE.
    Regarding student achievement, graduation rates and schools making 
Adequate Yearly Progress (AYP) under the requirements of the ESEA, the 
BIE-funded schools are required under 25 CFR 30.104 to use the 
standards of the state in which the school resides. Since the BIE funds 
schools in 23 different states, it is difficult to measure education 
quality due to the fragmentation of the accountability system for the 
BIE-funded schools. Under this situation, no BIE school can be compared 
with other BIE schools across state lines to gauge the success of the 
school programs.
    In a 2001 report, GAO reported that academic achievement of BIE 
students suffers because Indian parents' educational, employment, and 
earning levels are significantly lower than the national average. BIE 
schools find it difficult to recruit and maintain highly qualified 
teachers and instructors in such remote locations. Educational 
technology, as well as access levels to computers and the Internet for 
students in BIE schools is more limited than for students in public 
schools.
    BIE is pursuing a waiver, from the U.S. Department of Education for 
certain requirements of the ESEA, which includes a request to establish 
its own system of measuring student achievement and educational 
accountability in the near future. BIE is also working to promote high 
quality education for the BIE schools. In that respect, I will work 
with Secretary of Education, Arne Duncan, to ensure that BIE has the 
necessary tools to meet the demands of a school district and to provide 
the necessary support to the BIE in its commitment to improving the 
learning environment for its students. The reauthorization of the ESEA 
will assist in this effort.
    On September 23, 2013, Secretary Duncan and I convened an American 
Indian Education Study Group (Study Group), which the Assistant 
Secretary--Indian Affairs Washburn oversees. The Study Group will visit 
schools and classrooms, Tribal Governments, and Indian Affairs 
employees to gather information, listen to their concerns and, most 
importantly, try to find ways to improve American Indian education. 
Members of the Study Group are from the Department of Education, Brown 
University, and the Department of Defense.
    In addition, the FY 2014 President's Budget requests $2 million for 
a comprehensive evaluation of the BIE school system. Once the 
evaluation is completed, we will be in a better position to determine 
what the system should look like in the future.
School Construction
    According to testimony from Mr. John Rever, the Bureau of Indian 
Affairs Director of the Office of Facilities, Environmental and 
Cultural Resources, before the Committee on September 11, 2010, the 
estimated need for BIE school construction is as high as $1.3 billion. 
Despite this significant need, the President's Fiscal Year 2014 Budget 
Request proposes a $17.8 million cut that would zero-out the 
replacement school construction funds for the BIE.
    In your testimony before the Committee on May 15, 2013, you stated 
that because of budget restraints, the Department is prioritizing 
maintenance of its current structures over funding any new 
construction. However, recognizing the poor condition of many BIE 
schools, you indicated that the Department has also been considering 
other channels for funding, such as private philanthropy, noting that 
current law may not allow private funds to be used for the purpose of 
BIE school construction.

    Question 27. What, if anything, could be done legislatively to help 
the Department find alternative ways to meet the need for BIE school 
construction?
    Answer. There is no simple legislative fix for Indian school 
construction needs given the current fiscal climate. Currently, 
legislation prevents combining or curtailing education programs without 
tribal authorization. In some locations, however, school sites are 
closely located, with some just a few miles apart. For historic 
reasons, combining these programs has been rejected by tribes.
Contract Support Costs
    In its Fiscal Year 2014 Budget Request, the Administration proposes 
to address the Supreme Court's decision in Ramah v. Salazar, regarding 
the payment of full funding for the Contract Support Costs (CSC) 
incurred by Indian tribal contractors and to reduce the government's 
liability for the CSCs. Under the Administration's proposal, Congress 
is requested to appropriate CSC funding for tribal contractors of both 
the Bureau of Indian Affairs and the Indian Health Service on a 
contract-by-contract basis by incorporating by reference a table 
reflecting each of these individual contract amounts.

    Question 28. When does the Department plan to provide such a table?
    Answer. The Department of the Interior provided the contract-by-
contact CSC table to the Congressional appropriations committees on 
June 14, 2013. The table and the accompanying congressional transmittal 
letters can be found at the following Department website: http://
www.doi.gov/budget/index.cfm.

    Question 29. Will the Department consult with the affected tribes 
regarding the amounts to be included in the table? If so, how?
    Answer. In addition to providing the contract-by-contract CSC to 
the Congress, the Assistant Secretary--Indian Affairs reached out to 
Tribes in a June 14, 2013 Tribal Leader letter regarding the CSC list. 
It requests tribal leaders to submit any technical correction(s) to the 
BIA by July 29, 2013. In addition, the BIA held a CSC consultation 
session at the National Congress of American Indian conference in Reno, 
NV on June 25, 2013. DOI is pursuing the broader goal of developing a 
longer-term solution through consultation with Tribes as well as 
streamlining and simplifying the contract support costs process, which 
is considered by many as overly complex and cumbersome to both Tribes 
and the Federal Government. Department of the Interior officials will 
be available to hear tribal leaders views on this issue.

    Question 30. What is the methodology and process the Department 
will use to determine the amounts to be included in the table?
    Answer. Various OMB Circulars establish principles and standards 
that are applicable for determining contract support costs applicable 
to the awardee. Section 106(k) of P.L. 93-638, as amended, has made 
modifications to the OMB cost principles otherwise applicable to 
awardees, and section 106(a) of P.L. 93-638, as amended, defines which 
of an awardee's costs qualify under the statute for contract support 
costs funding. Also Appendix A-Standards for review and approval of 
contract support costs in the Bureau of Indian Affairs was applied.
    In determining the amount of CSC required, BIA Awarding Officials 
review the awardee's cost allocation plan, its associated IDC proposal, 
and approved IDC negotiations agreement for fiscal year 2012 to reduce 
the possibility of duplication of funding. The process of allocating 
funding available for CSC is outlined within the Bureau of Indian 
Affairs National Policy Memorandum, NPM-SELD-1. The contract support 
cost fiscal year 2012 actual agreed upon rates and payments are used as 
the base. In addition, a prorated amount of the $9.8 million increase 
included in the 2014 request level of $231.0 million is added. The 
increase strengthens the capacity of tribes to manage Indian Affairs 
programs for which they contract.
Social Services
    In a March, 2013 report entitled, Management of Social Services in 
BIA: Opportunity for Action, Report No. WR-EV-BIA-0001-2012, the 
Department of the Interior Office of Inspector General (OIG) evaluated 
the Bureau of Indian Affairs' (BIA) Social Services Program, which 
includes child welfare and protective services. The report found 
ongoing problems hindering the effective functioning of the program, 
including the lack of any clear standards, guidance, or defined program 
performance benchmarks; and inadequate communication among managers, 
staff, and tribes. According to the OIG report, these findings are 
almost identical to findings of independent evaluations contracted by 
the BIA in 1999 and again in 2012 to help improve BIA operations, 
including social services.

    Question 31. What is the Department doing to address these findings 
and recommendations to improve the functioning of the BIA Social 
Services Program? Please describe any progress that has been made to 
date in addressing the OIG findings.
    Answer. The Bureau of Indian Affairs, Office of Indian Services 
(OIS), Division of Human Services prepared two responses, dated 
February 4, 2013 and April 18, 2013, to the recommendations and 
findings cited under the OIG Report entitled, Management of Social 
Services in BIA: Opportunity for Action, Report No. WR-EV-BIA-0001-
2012.
    The OIS, Division of Human Services continues to work on addressing 
the findings and has established internal deadlines for each 
recommendation. However, the Division of Human Services progress in 
addressing the recommendations contained within the OIG report has been 
hindered by the constraints caused by the sequestration.
    The OS, Division of Human Services is working towards meeting the 
goals established in its response to the OIG.
High Priority Performance Pilot Program
    Crime in Indian Country remains a significant problem and one of 
the BIA's most important responsibilities to address. According to 
recent information from the BIA, in the third year of operation, the 
High Priority Performance (HPPG) pilot program has reduced violent 
crime by 56 percent on the Wind River Indian reservation.
    This downward trend in crime rates reflects persistent efforts by 
law enforcement personnel to fight crimes and develop community 
relations. However, that continued diligence may be disrupted by the 
difficulties in retaining law enforcement personnel, in part due to the 
lack of housing.

    Question 32. What can you do to help these officers with their 
housing needs on the Wind River Indian Reservation?
    Answer. The Bureau of Indian Affairs has collaborated internally 
with the Office of Facilities Management and Construction (OFMC) and 
the Shoshone and Arapaho Housing Division to identify resources and 
assistance to address housing needs for law enforcement officers.
    Currently, the OFMC is building four residential homes that will be 
designated for law enforcement officers and will be located in the 
government housing area. The Shoshone and Arapaho Housing Division is 
working with the Department of Housing and Urban Development (HUD) to 
address the maximum income stipulation that currently precludes law 
enforcement officers from residing in tribal housing.
    The BIA Wind River Agency provides law enforcement officers with 
information for housing in the Riverton and Lander area during the new 
employee orientation process. The law enforcement officers who reside 
in the towns of Riverton or Lander are permitted to use a government 
vehicle. The town of Riverton is 35 miles from the agency office. The 
town of Lander is 17 miles from the agency office, but both towns offer 
solid housing options for law enforcement officers

    Question 33. What other efforts is the Department undertaking to 
retain qualified law enforcement personnel on the HPPG sites and other 
Indian reservations?
    Answer. The BIA has increased its retention of qualified law 
enforcement personnel at HPPG sites through employee relations that 
include opportunities for skill development through work assignments; 
employee development through training for specialized duties such as 
school resource officer, or K-9 Unit; employee recognition for 
successful individual or unit performance; and opportunities for 
promotion.
Detention Staffing
    On March 31, 2011, the Department of the Interior Office of 
Inspector General (OIG) issued its evaluation entitled Bureau of Indian 
Affairs' Detention Facilities, Report No. WR-EV-BIA-2005-2010, 
specifically to determine how BIA spent its increased funding and how 
it addressed staffing problems. The OIG found that BIA has failed to 
address staffing shortages, which has created an unsafe atmosphere for 
both staff and inmates. In addition, OIG found egregious physical 
conditions at the detention facilities including, but not limited to, 
unsecure fencing, doors, and windows; absence of practiced safety and 
security measures; leaky roofs; rusted sinks, toilets, and showers; and 
an overall lack of cleanliness.

    Question 34. What is the Department currently doing to address the 
staffing and conditions at the Indian Country detention facilities? 
What if any progress has been made to date to address the problems 
identified in the OIG report?
    Answer. Staffing: One of the OIG's primary recommendations 
addressed the need to identify and remedy staffing shortages. To 
mitigate safety concerns related to understaffing, IA calculated the 
standard space staffing requirement for each facility throughout Indian 
Country. This report differentiated the size of the facility according 
to the National Institute of Corrections' (NIC) standards. To aid in 
meeting the staffing standards, the salaries of BIA correctional 
officers were increased to be more competitive with their counterparts 
in other agencies. Additionally, in FY 2010, BIA implemented an 
aggressive recruitment and hiring strategy, harnessing multimedia tools 
and broadening the pool of qualified applicants by modifying the 
recruitment process, recruiting veterans and current non-IA law 
enforcement officers, and working with universities to develop a 
cooperative student law enforcement program. BIA continued the 
recruitment initiative in FY 2011and FY 2012 and continues to see 
successful results in filling vacant police and correction officer 
positions. The new strategy continues to be a great success as 
evidenced by a clear growth trend of 128 FTE or 22 percent from the FY 
2009 baseline through the first quarter of FY 2013
    Facility Conditions: The FY 2014 President's Budget includes $11.3 
million for Public Safety and Justice (PS&J) construction, which funds 
the repair and improvement of IA detention and other public and safety 
facilities to increase public safety and improve the quality of life in 
Indian Country. From FY 2009 through FY 2013, over $104.5 million has 
been appropriated for PS&J construction. The resources fund Facilities 
Improvement and Repair (FI&R) projects that facilitate compliance with 
the requirements of the Americans with Disabilities Act (ADA), 
Environmental Protection Agency (EPA) mandates, and other safety code 
requirements, reducing IA's exposure to liability.
    To ensure resources reach the facilities of greatest need, a 
priority list of projects has been established within the PS&J program. 
Detention centers have the highest funding priority; the second 
priority is for short term holding cell facilities; and the third 
priority is for court facilities and law enforcement administrative 
offices. Detention facilities in the worst conditions and highest 
demand receive the highest priority for funding. To support this 
effort, work plans, financial program plans, and preventative 
maintenance plans are developed by IA detention centers.
Employment and Labor Report
    The Indian Employment, Training, and Related Services Demonstration 
Act of 1992 requires the Department of the Interior, in consultation 
with the Department of Labor, to publish not less than every two years 
an American Indian Population and Labor Force Report (``Report'') to 
provide accurate statistical information on population and employment 
rates for tribes.
    On July 2, 2012, the Department of the Interior issued a statement 
that they will not be releasing the 2010 Report because methodology 
inconsistencies resulted in data that did not meet the standards of 
quality and reliability required of Federal agencies and that past 
reports, sometimes used to set Indian policy, were also faulty. On July 
16, 2012, Senator Murkowski and I sent a letter to Secretary Salazar, 
pointing out the lack of information and urging the Department to 
release the report or fully explain their failure to comply with the 
law.
    The Department responded by letter that it intended to convene a 
working group, consult with tribes, and conduct a new survey before 
issuing a new report. However, it did not provide a clear timeframe for 
releasing the new report. At the end of 2012, the working group held 
four consultation and information sessions with the tribes, but no 
further update has been provided to the Committee.

    Question 35. Please explain the current efforts underway to issue a 
new report.
    Answer. Indian Affairs is continuing its efforts and is working in 
collaboration with senior members of the Interagency Working Group that 
was formed to advise Indian Affairs on the report's preparation. The 
group includes senior members from inside Indian Affairs, as well as 
senior members from the Office of Management and Budget, the U.S. 
Bureau of the Census, and the Secretary's Office.

    Question 36. Please provide a date certain when this new report 
will be issued?
    Answer. The target date for release of the report is December 2013.
Management
    On August 10, 2012, the Department of the Interior Office of 
Inspector General (OIG) issued a report entitled Hanna, Jeannette, et 
al., Case No. PI-PI-11-0616-I, finding a significant waste of Federal 
funds within the BIA for excessive spending for equipment, travel, and 
an employment detail without required justifications just for one 
senior official. This senior official was detailed to the Office of the 
Assistant Secretary (against advice from the Interior's Office of Civil 
Rights) for 775 days, 535 days more than what Federal regulations 
allow.

    Question 37. Please explain in detail what accountability and 
management measures have been established to ensure this sort of waste 
does not occur again?
    Answer. The Indian Affairs OIG Referral Program was moved under the 
operational control of the Director, Office of Human Capital 
Management, where there is a comprehensive understanding of federal 
personnel policies and practices. Training regarding travel regulations 
was developed that was consistent with Federal Travel Regulations and 
DOI travel policies and provided to all Indian Affairs administrative 
support staff for them to provide appropriate advice, guidance, and 
assistance to employees and managers. Also, travel review and 
responsibilities was addressed at top Indian Affairs leadership staff 
meetings. Finally, a memorandum from the Assistant Secretary--Indian 
Affairs was issued to all travelers highlighting and outlining both the 
individual travelers' and the reviewing supervisors' responsibilities 
for adhering to federal travel regulations. A copy of this memorandum, 
as well as a slide presentation concerning travel training, is 
prominently posted on the Indian Affairs Travel intranet website for 
all employees to review.

    In May, 2012, the OIG issued a report entitled Bureau of Indian 
Affairs' Law Enforcement Recruitment Services Contract with the 
National Native American Law Enforcement Association, Report No. WR-EV-
BIA-0005-2011. This Report found that the Bureau of Indian Affairs 
Office of Justice Services (OJS) had entered into a contract with the 
National Native American Law Enforcement Association for law 
enforcement recruitment services, which violated federal procurement 
regulations and Department policy, and cost the Department almost $1 
million. This failure to follow the necessary procedures resulted in 
the contract being poorly written, under which the OJS paid this 
contractor for recruitment services and received no benefit whatsoever, 
thus wasting almost $1 million.

    Question 38. What action has the Department taken to address the 
findings in this Report?
    Answer. After the current Office of Justice Services management 
team became aware of the previous Bureau of Indian Affairs' (BIA) Law 
Enforcement Recruitment Services Contract with the National Native 
American Law Enforcement Association (NNALEA), the issues that 
surrounded the failed contract award highlighted the need to improve 
the administrative guidance and support available to OJS management and 
field staff. Please see our response to the third question below 
regarding additional actions taken to address the findings in the 
report.

    Question 39. Has the Department recovered this $1 million? If not, 
why not?
    Answer. To date, we have been unable to confirm the recovery of any 
amount under this contract. We will continue to research and provide an 
updated status.

    Question 40. What accountability, management, and procurement 
measures are in place to ensure this sort of mismanagement does not 
occur again?
    Answer. The BIA's Office of Justice Services (OJS) has implemented 
measures to ensure staff have the appropriate guidance when developing 
future contracts and are adhering to the Federal Acquisition 
Regulations (FAR). OJS has also taken steps to ensure in-house staff 
and resources are utilized prior to seeking external contractual 
services. Specifically, in 2011, OJS management moved the Associate 
Director of Administration position from Albuquerque, NM to the 
Washington, DC office and established a Support Services division that 
works closely with Indian Affairs Office of the Chief Financial Officer 
(OCFO) to provide guidance for operational support.
    In addition, internal control process reviews related to the 
acquisition function are completed on an annual basis and documented in 
the OMB Circular A-123, Appendix A, Internal Control over Financial 
Reporting process document and submitted to the Indian Affairs Office 
of Internal Evaluation and Assessment.

    Question 41. How is the BIA currently conducting recruitment 
activities for law enforcement personnel?
    Answer. The BIA OJS recruits for law enforcement personnel through 
regional/tribal level collaboration with educational institutes and 
local events. District and agency law enforcement agencies participate 
in local career fairs and traditional events for recruitment. Examples 
of partner organizations include United Tribes Technical College (ND), 
Dull Knife Community College (MT), Little Big Horn Community College 
(MT), Haskell Indian Nations University (KS), Northeastern Oklahoma A&M 
College (OK), Cameron University (OK), University of Science and Arts 
(OK), and Santa Fe Indian School (NM). At these events, OJS recruitment 
outreach consists of a variation of activities which may include a 
recruitment booth with recruitment information and application 
assistance, law enforcement vehicle presentation, K-9 presentations, 
and formal presentations on Indian Country law enforcement.
    This collaboration has resulted in a significant increase in new 
appointments to vacant positions. OJS also utilizes social media as a 
recruitment tool. Its other outreach efforts include collaborating with 
other such organizations as the American University's Washington 
Internship for Native Students (WINS) to share employment 
opportunities.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Heidi Heitkamp to 
                           Hon. Sally Jewell
Law Enforcement Training
    I strongly encourage the Department of Interior and Bureau of 
Indian Affairs to better utilize the resources and vision of United 
Tribes Technical College (UTTC) in Bismarck, North Dakota, to become a 
major provider of law enforcement training for Indian Country, 
eventually leading to an academy involving an array of training, 
academics and research.

    Question 42. What is the graduation rate (i.e., successful 
completion of training) among BIA/Tribal law enforcement trainees 
participating in the academy at Artesia? How many law enforcement 
offers does the BIA certify annually?
    Answer. The BIA Indian Police Academy (IPA) conducts four Basic 
Training programs annually. In total for FY 2012, the IPA graduated 287 
Officers from these Basic Training Programs, which equated to a 74 
percent graduation rate:

  <bullet> The Basic Police Officer Training Program (16 week) 
        graduated 81 Police Officers; the program's graduation Rate for 
        FY-2012 was 65 percent.

  <bullet> The Basic Correction Officer Training Program (6 week) 
        graduated 123 Correction Officers; the program's graduation 
        rate for FY-2012 was 70 percent.

  <bullet> The Basic Criminal Investigator Training Program (10 week) 
        graduated 59 Criminal Investigators; the program's graduation 
        rate for FY-2012 was 97 percent.

  <bullet> The Basic Police Officer Bridge Training Program (2.5 week) 
        graduated 24 Police Officers; the program's graduation rate for 
        FY-2012 was 88 percent.

    The IPA also conducted 100 Advanced Level Training Programs (BIA 
Outreach/FLETC Advanced) that were offered to BIA and Tribal Indian 
Country Public Safety and Court personnel. The Advanced Training 
Programs included specific training for Law Enforcement, Corrections, 
Tribal Courts, and Management personnel throughout Indian Country. In 
FY 2012, a total of 1,735 public safety personnel completed Advanced/
Outreach Training programs.

    Question 43. If trainees are not successful at Artesia, are there 
other means by which BIA/Tribal law enforcement personnel are certified 
by the BIA? Are there reciprocity agreements with state training 
sources?
    Answer. Trainees that do not successfully complete a Basic Training 
Program fail to complete for the following reasons:

         (1) Failure of Examination/Practical Exercises--The student 
        has the opportunity to attend a future program.

         (2) Personal Resignation--If employed by a BIA or Tribal 
        program, the student has the opportunity to attend a future 
        program.

         (3) Conduct Violations--Based on the severity of the Conduct 
        Violation, the student may or may not have the opportunity to 
        attend a future program.

         (4) Health Reasons--The student has the opportunity to attend 
        a future program.

    All BIA officers have to meet the BIA Basic Training Requirements 
which requires completion of a Federal Basic Training Program. This 
will require all BIA officers to attend and complete the BIA Basic 
Police Officer Training, BIA Basic Corrections Officer Training, BIA 
Basic Criminal Investigator Training, or BIA Basic Police Officer 
Bridge Training programs.
    There are many tribal programs that utilize their respective State 
Police Academies to provide basic Training to their Police officers. 
Tribal Correction Officers attend the IPA. Tribal Criminal 
Investigators attend the BIA/FLETC Criminal Investigator Training 
Program. Regarding Basic Police Officer Training, each specific tribal 
program chooses to send their Officers either to their respective State 
Academy or attend the IPA based on their tribal government's needs. 
Therefore tribes have the discretion to choose which academy they send 
their Police Officers in order to meet Basic Training Requirements. For 
example for the two tribal law enforcement programs in North Dakota, 
the Three Affiliated Tribes utilize the North Dakota State Police 
Academy and the Sisseton Wahpeton Tribal Police send their Police 
Officers to either the State of South Dakota Police Academy or the IPA.
    There are no formal reciprocity agreements with State Law 
Enforcement Academies. The IPA conducts a BIA Basic Police Officer 
Bridge Training Program that is designed to provide STATE POST 
certified police officers with a 2.5 week program that provides 
curriculum on Federal Court Procedures, Criminal Jurisdiction in Indian 
country and BIA Standards. Completion of the BIA Basic Police Officer 
Bridge Program will provide the Officer with BIA Basic Training 
Requirements.

    Question 44. UTTC is fully accredited by the North Central 
Association on Colleges and Schools and among its offerings are two- 
and four-year criminal justice degrees, shorter-term training and 
certificates. I understand the program at Artesia does not offer 
college training and credit to persons participating in the program. 
Wouldn't it be an advantage to have a program which could meet the 
broader long-term needs of law enforcement trainees?
    Answer. The IPA supports and promotes education of all public 
safety personnel in Indian Country. As a participating organization of 
the Federal Law Enforcement Training Center, the IPA has solely 
concentrated on conducting Basic and Advanced training for law 
enforcement, corrections, and Courts personnel that are hired and 
working for a Tribe or the BIA. To be eligible to attend an IPA 
program, the student has to be a full time, law enforcement or 
corrections officer. The intent of the training provided at the IPA is 
to train and develop personnel on the core competencies of the position 
for which they perform in the public safety field.
    Also of note is that higher education institutions, universities, 
and colleges do request training records of IPA graduates with the 
intent to provide the graduate with college credits toward their degree 
or certificate. The IPA understands the importance of partnering with 
higher education institutions to promote education for current law 
enforcement professionals and future law enforcement professionals. In 
2010, the IPA provided resources to East Central Oklahoma State 
University (Oklahoma) and the United Tribes Technical College to 
support their respective degree programs and continual development of 
law enforcement personnel. The IPA has made the commitment to continue 
a partnership with the United Tribes Technical College and will 
continue to seek engagement with other universities or Tribal colleges 
across the nation.

    Question 45. What percent of law enforcement officer positions are 
vacant throughout Indian Country? Please provide a breakout by 
position.
    Answer. The overall vacancy rate for BIA law enforcement officer 
positions nationwide is currently 28 percent. This number is comprised 
of a vacancy rate of 31 percent for police officer positions and 24 
percent for criminal investigator positions.

    Question 46. What percent of law enforcement officer positions are 
needed throughout Indian Country? Please provide a breakout by 
position.
    Answer. A report detailing public safety and justice needs was 
compiled by BIA and submitted to the appropriate congressional 
committees in accordance with Section 211(b)(2) Title II of Public Law 
111-211, The Tribal Law and Order Act (TLOA). In the report, BIA 
provided an unmet need estimate for law enforcement programs by using a 
ratio of officers per 1,000 residents. The data used to determine the 
appropriate ratio are found in the FBI Uniform Crime Report (UCR). \1\ 
Based upon the 2010 UCR staffing tables, county agencies have an 
average of 2.8 officers per 1,000 residents. \2\ The UCR does not have 
a specific ratio for Indian Country, but the 2.8 sworn personnel per 
1,000 residents may be the comparable ratio to the majority of Indian 
communities. Applying this ratio to the resident populations of the 
tribes served by BIA would produce a need of 3,187 officer positions 
throughout Indian Country that current BIA law enforcement funding does 
not cover. As a step toward addressing this need, the FY 2014 
President's Budget includes a program increase of $5.5 million for 
Criminal Investigations and Police Services.

    \1\  The UCR Program was conceived in 1929 by the International 
Association of Chiefs of Police to meet a need for reliable, uniform 
crime statistics for the nation. In 1930, the FBI was tasked with 
collecting, publishing, and archiving those statistics.
    \2\  See 2010 Uniform Crime Report table 71 at www.fbi.gov/ucr/
cius2010/police/index.html
---------------------------------------------------------------------------
    Question 47. Has the BIA conducted any long-term assessment of law 
enforcement needs in Indian Country?
    Answer. A report detailing public safety and justice needs was 
compiled by BIA and submitted to the appropriate congressional 
committees in accordance with Section 211(b)(2) Title II of Public Law 
111-211, The Tribal Law and Order Act (TLOA). See response to previous 
question.

    Question 48. Do you expect the recent expansion of tribal 
jurisdiction afforded by the Tribal Law and Order Act and the Violence 
Against Women Act to increase the need for law enforcement officials in 
Indian Country?
    Answer. There is a potential for increased law enforcement needs 
developing in P.L. 280 states in response to enactment of provisions 
under the TLOA regarding concurrent federal jurisdiction. As affected 
tribes that meet certain criteria under TLOA make the determination to 
establish a law enforcement program and begin a dialogue with the BIA 
about doing so, a clearer picture of need for these tribes will be 
possible. As an indication of the work that lies ahead, there are 
currently 105 federally recognized tribes located in the state of 
California, but only five receive public safety and justice funding 
from BIA.
    The recent passage of the Violence Against Women Reauthorization 
Act of 2013 (VAWA) will have a significant impact on tribal justice 
systems as well. The law amends, among other statues: the Indian Civil 
Rights Act, 25 U.S.C. 1301; the Federal Assault provisions under 18 
U.S.C. 113; the Domestic Violence and Stalking Chapter, specifically 
addressing the full faith and credit given to tribal protection orders, 
under 18 U.S.C. 2265. As a result of provisions contained in the law, 
the BIA may need to develop and implement training for our direct 
service program staff in the areas of law enforcement, social services, 
victim services, and especially courts. The BIA may also need to 
provide additional technical assistance and training to tribes 
operating these programs under self-determination contracts and 
compacts. Final determination of need will be based on Tribal requests 
themselves.

    Question 49. What steps can the BIA take now to work with UTTC in 
expanding training opportunities and to provide certification for BIA/
Tribal law enforcement personnel?
    Answer. The BIA has provided resources and developed a training 
partnership with the United Tribes Technical College (UTTC). The BIA 
has dedicated a full time BIA Indian Police Academy Training Sergeant 
(Instructor) onsite, assigned to provide technical assistance to UTTC 
and coordinate advanced training programs held on the campus. The BIA 
has promoted the UTTC partnership to other Indian Country public safety 
programs and other federal agencies as an advanced training site for 
the BIA's IPA. Prior to the effects of the sequestration, the IPA 
averaged between eight to ten (8-10) advanced training programs 
annually. The advanced training programs included; criminal 
investigation, management/supervision, corrections, and police training 
courses.
    The BIA will continue to promote its support of UTTC. The current 
training programs conducted at the UTTC help to accomplish continual 
in-service training requirements that are required to maintain law 
enforcement certification.

    Question 50. One result of the Bakken oil boom in North Dakota is 
the huge influx of people in areas that are not prepared for such an 
immediate change and it has put a great stress on law enforcement 
officials, notably for the Three Affiliated Tribes public safety 
program.
    Answer. The BIA provides a direct service special agent to support 
the Three Affiliated Tribes law enforcement program. In May, an 
additional criminal investigator position was advertised.
    The BIA district office provides technical assistance to the Three 
Affiliated Tribes law enforcement department regarding the influx of 
drugs and violent crime. BIA has met on several occasions with the 
Tribal Chairman and Chief of Police to assist them with their desire to 
establish a drug task force. The first meeting occurred on February 1, 
2013, in which the tribe requested assistance to interview candidates 
to lead the tribal drug task force. The last meeting held by the tribe 
was March 1, 2013, on initiating the drug task force.
Spirit Lake Child Welfare
    I continue to be very concerned about child welfare issues at the 
Spirit Lake Nation in North Dakota. There is a considerable need for 
continuity and for permanent staffing of the program to ensure children 
on the reservation are protected. Additionally, it is imperative the 
claims of abuse that have been made to date are thoroughly 
investigated.

    Question 51. Please provide an outline of the steps taken by the 
Department to ensure proper placement of children in foster homes since 
the BIA assumed operation of the social service program at Spirit Lake.
    Answer. Since October 1, 2012, BIA, Fort Totten Agency has had the 
responsibility of operating the social services programs including 
foster care, for the Spirit Lake Tribe, North Dakota.
    If a relative placement cannot be located for a child, BIA will 
then proceed with a foster care placement. All foster care homes are 
licensed, which includes fingerprinting, background checks, and home 
inspections for those homes. The homes are licensed by the respective 
state county using the state criteria or through the Tribe, also using 
the state criteria. The Tribe is still actively engaged in the 
licensing process because it is continuing to operate a part of their 
social service program through a Title IV-E of the Social Security Act 
(IV-E) agreement with the state of North Dakota. This program pays for 
their staff to continue to place children in foster care.
    The Tribe has 33 children in IV-E state agreement foster care 
placements. Those children are not subject to BIA supervision, and the 
Tribe is responsible to the state of North Dakota for oversight on 
those placements. If a child meets the state requirements for IV-E 
eligibility, the BIA foster care program transfers children to services 
under the Tribe's IV-E agreement with the state.

    Question 52. What is the timeline for having the social services 
office fully staffed? Does the Department have the resources necessary 
to fully address the issues with the social services program? How long 
do you anticipate the BIA will continue operations of the program?
    Answer. The BIA has been pursuing the hiring of six permanent 
positions for the social services program at the Fort Totten Agency. 
However, the BIA has encountered many obstacles in hiring permanent 
staff for the program. These obstacles include:

  <bullet> Lack of available government housing;

  <bullet>  Negative publicity regarding child protective services 
        despite significant program improvements;

  <bullet>  A shortage of qualified social worker applicants applying 
        for the positions;

  <bullet>  Hiring certifications that come back with either no 
        applicants or only one to two unsuitable applicants;

  <bullet>  Suitable candidates who are selected; then the individual 
        withdraws their application or is unable to meet specific 
        background requirements and/or job requirement elements

    The Supervisory Social Worker, prior to the Department of the 
Interior hiring freeze, had been advertised twice. On both occasions 
selections were made but ultimately the selected candidates withdrew 
citing personal reasons (once again for the first two reasons listed 
above). Since the last applicant declination, a hiring freeze was 
initiated by the Department, thus requiring a waiver. A waiver was 
requested on May 6, 2013 and after approved, the position was 
advertised immediately thereafter. The position closed on August 29, 
2013 with the anticipation of a prompt selection.
    The Child Welfare Specialist positions that will be responsible for 
investigations and case management have been advertised 5 times with 
selections being made however, there have been multiple declinations. 
Recently, one person accepted an offer and the other position was 
offered to the first and second choice candidates and both declined. 
The one person who accepted is scheduled to report on September 9, 
2013. The other twice-declined position will be re-advertised; this re-
advertisement will be the final re-advertisement for the positions 
needed to fully staff the program.
    Finally, the Social Service Representative was previously 
advertised twice without any applicants qualifying for the position. 
This position was finally advertised with several applicants responding 
and a selection has been made. The one person who accepted is scheduled 
to report on September 23, 2013. Given all the factors noted above, it 
may yet be another 3-6 months before this program is fully staffed.
    As a result of the issues with filling the vacancies at the Agency, 
the BIA Great Plains Regional Office (which oversees the Agency) has 
been coordinating the assignment of other BIA Regional and Agency 
social services workers every week to the Fort Totten Agency. The 
Regional Office details up to four individuals from other BIA agencies 
within the Region to the Fort Totten Agency to help cover the four 
vacant positions and ensure the delivery of services. Currently, there 
are six BIA agency social services staff available region-wide, who can 
be detailed to the Fort Totten Agency to assist.
    The program is in the middle of a 12-week set of detail 
assignments, which establishes coverage through mid-October. With the 
new hires noted above starting in September, we hope to reduce this 
schedule to two positions before it is completed. We will continue to 
aggressively pursue the hiring process until all positions are filled 
and expect that the next 12-week set of details will be a contingency 
plan and the need for the two remaining detail positions will be 
eliminated before 2014.

    Question 53. What procedures within the social services office has 
the Department adopted since BIA's assumption of the program to ensure 
the safety and protection of children?
    Answer. The BIA has adopted a number of significant procedures and 
has also re-engaged in community prevention activities designed to 
reduce instances of abuse. In addition, the efforts at the Spirit Lake 
Tribe have also allowed program and Agency staff to filter through some 
of the unsubstantiated cases through improving mandatory reporting 
methodologies in coordination with other key partners such as the 
medical facilities and school systems. The mandatory reporter 
methodologies alone have resulted in a 40 percent drop in child abuse 
and neglect reports and also in receiving reports with information 
which facilitates a more rapid and thorough investigation strategy. For 
the past few months, the number of referrals has maintained even levels 
of approximately 80 per month.
    Protocols have been established for all key social services 
processes which are greatly assisted by the knowledgeable and 
experienced staff assisting from other BIA locations on the proper 
protocols for investigations, case management, foster care, and all 
other key social services processes. This standardization has led to 
more consistent processing across the board. Most importantly, abuse 
and neglect reports are documented and tracked through much more 
concise systems. Training has been coordinated and completed internally 
and through other state and Federal Agency partners to improve services 
at Spirit Lake.
    Other efforts include:

  <bullet>  The Social Services program collaborates with the Federal 
        Bureau of Investigation, Red River Advocacy Center and BIA law 
        enforcement to complete forensic interviews for children who 
        report instances of mental, physical, or sexual abuse.

  <bullet>  The staff has worked on encoding data and uploading 
        documentation for cases into the Financial Assistance and Case 
        Management System (FASS-CMS) that is utilized by all BIA Social 
        Services programs to assist with more thorough tracking.

  <bullet>  The staff is performing 24 hour on-call Child Protective 
        Services as of October 1, 2012. They have partnered with BIA 
        law enforcement to assist with investigations of referrals of 
        allegations of child abuse and/or neglect.

  <bullet>  The program has issued child assistance payments on a 
        monthly basis to providers for children that are placed in 
        foster care and residential care.

  <bullet>  The files were re-located on October 1, 2012 to the Fort 
        Totten Agency. Staff has created and maintained case files.

  <bullet>  On November 30, 2012 the BIA Great Plains Regional Office, 
        Division of Human Services, BIA Fort Totten Agency Social 
        Services, Spirit Lake Tribal Social Services, and the 
        University of North Dakota's Children and Family Services 
        Training Center co-presented mandatory abuse reporter training 
        for the Spirit Lake community. The goal was to increase 
        awareness about identifying abuse and neglect, responsibilities 
        of mandated abuse reporters, what to include on a referral, and 
        the BIA referral process. Over 40 mandated abuse reporters 
        attended the session.

  <bullet>  On January 8, 2013, the Bureau of Indian Affairs, Great 
        Plains Region and the Office Justice Services provided 
        fingerprint training to Tribal and BIA Social Services staff at 
        the Agency. The Agency has received three mobile fingerprinting 
        units that its social services staff utilizes for in-home 
        fingerprinting of adults in foster homes where children in 
        protected care may be placed.

  <bullet>  On March 12, 2013, a Child and Family Wellness Fair was 
        conducted in Fort Totten, North Dakota. Resource providers were 
        present to share information with community members and 
        training topics presented, including domestic violence 
        prevention and services.

  <bullet>  Since November 1, 2012, the Social Services program has 
        assumed the responsibility of leading bi-weekly Child 
        Protection Team meetings, which allow multiple local Agencies 
        to staff particular cases to best coordinate physical and 
        mental health services for children in the BIA's care and 
        custody. The members of this team are: BIA Social Services, 
        Spirit Lake Tribal Social Services, Ramsey and Benson County 
        Social Services staff, school district staff, IHS staff, and 
        local counseling and family services providers. The meetings 
        are usually held the 1st and 3rd Thursday of every month, with 
        the next meeting on September 5, 2013. All members of this team 
        sign confidentiality statements.

  <bullet>  Since November 1, 2012, the Social Services staff has and 
        continues to participate in the Multi-Disciplinary Team 
        meetings coordinated through the Department of Justice's U.S. 
        Attorney's office to address those cases which are the subject 
        of criminal investigation and prosecution in either federal or 
        tribal court. The most recent MDT meeting was just held on 
        Tuesday, August 20, 2013. Members of this team consist of: BIA 
        Social Services, FBI, U.S. Attorney, Spirit Lake Tribal Social 
        Services, the Tribal prosecutor, BIA-OJS Law Enforcement, 
        Spirit Lake Tribal Victim's Assistance program, and Red River 
        Advocacy (organization conducting forensic interviews of 
        children). The next meeting is not yet scheduled, but will 
        likely be within the next 4-6 weeks depending on volume of 
        forensic interviews. All members of this team sign 
        confidentiality agreements.

  <bullet>  Since June, 2012, the establishment of the Social Services 
        Coalition which meets approximately once a month to communicate 
        and collaborate on providing effective delivery of Social 
        Service related programs. Members of this coalition includes 
        all local state, county, federal and tribal social service 
        entities, representatives from state district, tribal and 
        federal court, Law Enforcement, Victim's Assistance program, 
        tribal council, and area leaders. The group works together on 
        interagency services coordination and communication, inter-
        agency community events like Child and Family Wellness Fairs, 
        and other community issues related to social services as they 
        arise. The next coalition meeting is scheduled for September 
        11, 2013.

  <bullet>  In case management, 66 cases have been closed in the past 
        month. As of this date, there are 74 active cases with an 
        additional 51 service only cases.

    Question 54. I understand that children who are being assessed for 
potential child abuse are currently being transported to Grand Forks 
and Fargo, which are both hours away from the reservation, compounding 
the fear of many of these children. Would the Department consider 
having Native American female officials available to interview 
suspected victims on the reservation as opposed to having the children 
transported great distances?
    Answer. Forensic interviews are tools to not only protect children 
from abuse, but to document their potential testimony for future 
criminal proceedings, if necessary. Accordingly, this highly 
specialized process requires certain staff, environments, and even 
sensitivity to the child's willingness to visit with trained staff. The 
Spirit Lake BIA Social Services Program currently utilizes two 
locations--Grand Forks, which is about 100 miles away, and Fargo, which 
is about 185 miles away. The Program has need of about three to four 
such interviews a month, on average. The possibility of local 
interviews has been discussed to address the specific concerns about 
the travel distances, however, the discussion revealed two challenges. 
First, the interview settings have been developed to both make children 
comfortable, and to document potential testimony. Accordingly, 
interview sites are equipped with recording equipment, and two-way 
mirrors in addition to special toys and creative materials designed to 
help children express themselves about potential abuse. Resources would 
need to be secured to replicate these settings on the reservation. It 
is unlikely such facilities would be considered cost effective at 
Spirit Lake, much less all 16 reservation locations in the Great Plains 
Region.
    Finally, when the possibility of reservation-based interviews were 
being discussed, those staff conducting such interviews indicated that 
the new location actually facilitated greater success at eliciting 
credible information because children temporarily away from their usual 
community environment felt safer revealing incidents of abuse and 
trauma. The combination of these factors led staff and those conducting 
forensic investigations to conclude that the integrity of the 
information obtained outweighed the travel distance concerns in these 
scenarios.
Oil and Gas Development
    Energy development on Indian reservations provides significant 
benefits, including economic development, jobs, and infrastructure 
development. In the Great Plains, where many conventional energy 
resources are available for development on Indian reservations, the 
average unemployment rate is 77 percent. Facilitating Indian energy and 
economic development is exactly what is needed to lift many tribes out 
of poverty. However, I continue to be concerned the Department is not 
providing the same level of coordination for requests from tribes to 
improve federal permitting coordination as it is doing on other federal 
lands. While efforts are being made to expand BLM's pilot program to 
improve federal permit coordination, tribes are being left behind. A 
number of years ago the Department committed to creating a ``virtual'' 
one stop shop at the Fort Berthold Reservation, but the office has 
never received the necessary support to make it work as intended. It is 
vital that permanent staff be on the ground to help the tribes oversee 
and manage the energy development occurring on Indian lands.

    Question 55. What steps will the Department take to improve the one 
stop shop at Fort Berthold to ensure the tribe is a full and equal 
partner in the overall efforts of the Department to improve the 
coordination of federal permitting?
    Answer. The Department is working diligently to ensure oil and gas 
projects on Indian lands continue to provide valuable contributions as 
a full and equal partner in securing America's energy future. As part 
of the effort to increase the efficiency of Federal permitting and 
review of oil and gas activities, the Department, BLM, and BIA are 
currently engaged in several initiatives, including the interagency 
Bakken Federal Executive Group. The Federal Executive Group recently 
met on June 5, 2013, in Billings, MT to discuss methods for improving 
tribal coordination and consultation on the Fort Berthold Reservation.
    The Bakken Federal Executive Group recognizes the Fort Berthold 
Partners, a local interagency working group focused on coordination of 
oil and gas activities on the Reservation, as an important forum for 
the facilitation of permitting Indian Trust minerals. This working 
group grew out of the spirit of the Fort Berthold one-stop shop, and 
consultation with the Three Affiliated Tribes is a core element of the 
work group's agenda. The Federal Executive Group plans to strengthen 
the foundation for the Fort Berthold Partners by articulating 
expectations and providing support for resources intended to help 
revitalize the working group. The Department will also aim to provide 
greater continuity to ensure this group's long-term effectiveness in 
facilitating prompt permitting and thorough environmental review.
    The office has been able to provide essential coordination, 
technical assistance, and communication services between the federal 
partners and for the benefit of the Tribe and allotees. The Pilot 
Office program expansion supported by the Department will help ensure 
permit applications on both Indian trust and public lands are processed 
efficiently and in a safe and responsible manner. In addition to the 
benefits of an expanded Pilot Office program operating on Indian lands, 
the Department, through the Office of Indian Energy and Economic 
Development's Division of Energy and Mineral Development (DEMD), has 
continued to provide GIS and data management support in the 
implementation of the National Indian Oil and Gas Management System 
(NIOGEMS). The NIOGEMS system is utilized by Tribal offices, the BIA, 
BLM field offices, and the Office of Natural Resources Revenue (ONRR) 
to ensure proper communication and coordination between the various 
Departmental agencies, Three Affiliated Tribes, and individual Indian 
mineral owners.
    In 2011, DEMD hired two environmental surface compliance 
specialists, one GIS specialist, and three administrative support 
positions to meet increased oil and gas development activity in the 
area. Furthermore, the BIA Great Plains Region and the Three Affiliated 
Tribes of Fort Berthold negotiated a P.L 93-638 contract agreement to 
go into effect August 1, 2013. This agreement allows for the tribe to 
hire three additional staff to be co-located with the BIA Fort Berthold 
Agency staff in a capacity building effort to better serve oil and gas 
operations on tribal lands, and to assist willing land owners with 
individual leasing matters.
    To further encourage efficient permitting of oil and gas projects 
on Indian lands, the Department will implement a new automated tracking 
system across the BLM and BIA that could reduce the review period for 
drilling permits by two-thirds. The new system will track permit 
applications through the entire review process, quickly flagging 
missing or incomplete information, thereby greatly reducing the back-
and-forth between the BLM and industry applicants that is currently 
needed to ensure applications are complete.

    Question 56. What steps are being taken by the Department of the 
Interior to improve consultation with tribes on oil and gas development 
issues on tribal lands?
    Answer. The Department of the Interior remains committed to 
continuing a robust dialogue in consultation with tribes on oil and gas 
development issues on tribal lands. As part of this commitment, the 
same level of support that is being undertaken at Fort Berthold is now 
required for the Uintah and Ouray Reservation, Navajo, Blackfeet, and 
other oil and gas producing Tribes as well.
    To improve our consultation with tribes on oil and gas development 
issues on tribal lands, the Director of the BIA and the Director of 
IEED both recently participated in a Four Corners Tribal Energy Summit 
that included the five tribes of the four corners region. The summit 
provided an opportunity for both tribes and federal agencies to discuss 
ways that permitting issues could be addressed. Action items from the 
meeting included follow up on meetings to develop strategies to address 
tribal and federal concerns regarding coordination and communication.
Attachment

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                  <all>

</pre></body></html>
